<html>
<title> - [H.A.S.C. No. 113-83] HEARING ON NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2015 AND OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS BEFORE THE COMMITTEE ON ARMED SERVICES HOUSE OF REPRESENTATIVES ONE HUNDRED THIRTEENTH CONGRESS SECOND SESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]






                                     
 
                         [H.A.S.C. No. 113-83]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2015

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                   FISCAL YEAR 2015 NATIONAL DEFENSE

                     AUTHORIZATION BUDGET REQUESTS

                     FROM THE U.S. PACIFIC COMMAND,

                       U.S. CENTRAL COMMAND, AND

                          U.S. AFRICA COMMAND

                               __________

                              HEARING HELD

                             MARCH 5, 2014

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                 



                         U.S. GOVERNMENT PRINTING OFFICE 

87-615                         WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office, http://bookstore.gpo.gov. For more information, contact the
  GPO Customer Contact Center, U.S. Government Printing Office,
  Phone 202-512-1800, or 866-512-1800 (toll free). E-mail,
  <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="81e6f1eec1e2f4f2f5e9e4edf1afe2eeecaf">[email&#160;protected]</a>
  













                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                DAVID LOEBSACK, Iowa
BILL SHUSTER, Pennsylvania           NIKI TSONGAS, Massachusetts
K. MICHAEL CONAWAY, Texas            JOHN GARAMENDI, California
DOUG LAMBORN, Colorado               HENRY C. ``HANK'' JOHNSON, Jr., 
ROBERT J. WITTMAN, Virginia              Georgia
DUNCAN HUNTER, California            COLLEEN W. HANABUSA, Hawaii
JOHN FLEMING, Louisiana              JACKIE SPEIER, California
MIKE COFFMAN, Colorado               RON BARBER, Arizona
E. SCOTT RIGELL, Virginia            ANDRE CARSON, Indiana
CHRISTOPHER P. GIBSON, New York      CAROL SHEA-PORTER, New Hampshire
VICKY HARTZLER, Missouri             DANIEL B. MAFFEI, New York
JOSEPH J. HECK, Nevada               DEREK KILMER, Washington
JON RUNYAN, New Jersey               JOAQUIN CASTRO, Texas
AUSTIN SCOTT, Georgia                TAMMY DUCKWORTH, Illinois
STEVEN M. PALAZZO, Mississippi       SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana
BRADLEY BYRNE, Alabama

                  Robert L. Simmons II, Staff Director
                 Alex Gallo, Professional Staff Member
                 Mike Casey, Professional Staff Member
                           Aaron Falk, Clerk
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2014

                                                                   Page

Hearing:

Wednesday, March 5, 2014, Fiscal Year 2015 National Defense 
  Authorization Budget Requests from the U.S. Pacific Command, 
  U.S. Central Command, and U.S. Africa Command..................     1

Appendix:

Wednesday, March 5, 2014.........................................    47
                              ----------                              

                        WEDNESDAY, MARCH 5, 2014
 FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
THE U.S. PACIFIC COMMAND, U.S. CENTRAL COMMAND, AND U.S. AFRICA COMMAND
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Austin, GEN Lloyd J., III, USA, Commander, U.S. Central Command..     5
Locklear, ADM Samuel J., USN, Commander, U.S. Pacific Command....     4
Rodriguez, GEN David M., USA, Commander, U.S. Africa Command.....     7

                                APPENDIX

Prepared Statements:

    Austin, GEN Lloyd J., III....................................    82
    Locklear, ADM Samuel J.......................................    56
    McKeon, Hon. Howard P. ``Buck''..............................    51
    Rodriguez, GEN David M.......................................   129
    Smith, Hon. Adam.............................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mrs. Davis...................................................   147
    Mr. Turner...................................................   147

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................   155
    Mr. Lamborn..................................................   154
    Mr. LoBiondo.................................................   153
    Mr. McKeon...................................................   151
    Mr. Shuster..................................................   153
    Ms. Speier...................................................   154
    Ms. Tsongas..................................................   153
    Mrs. Walorski................................................   155
    
    
 FISCAL YEAR 2015 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUESTS FROM 
THE U.S. PACIFIC COMMAND, U.S. CENTRAL COMMAND, AND U.S. AFRICA COMMAND

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                          Washington, DC, Wednesday, March 5, 2014.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. The committee will come to order.
    Good morning, ladies and gentlemen. The committee meets 
today to receive testimony on the fiscal year 2015 National 
Defense Authorization budget request for the U.S. Pacific 
Command, U.S. Central Command, U.S. Africa Command.
    Joining us today are Admiral Samuel Locklear, General Lloyd 
Austin, and General David Rodriguez. Thank you for being with 
us.
    Admiral Locklear, thank you for adapting your schedule to 
accommodate the Mid-Atlantic snow and ice.
    He is not here, but one of my good friends that sits on 
this committee from Minnesota told me he was for global warming 
now. They have had 50 days below zero this winter.
    The scope of this hearing is immense and it is doubtful 
that we will address all of the important issues we have here 
today, so I encourage members to submit questions for the 
record.
    However, I do think the composite views of these three 
commanders provides an interesting and interactive opportunity 
to discuss the changing strategic environment, the global 
demand for forces, the implications of budget cuts and force 
reductions and risk among the commands.
    Today's hearing is a study in contrast. The crisis 
unfolding in Ukraine is a sobering reminder that military 
strength, presence, and staying power in the world still 
matter.
    And just yesterday, we received a budget request and new 
defense strategy that continues to cut our military strength 
and reduces our ability to respond to crises around the world.
    The President's assumption that the tide of war is receding 
and that we can safely reduce American hard power in favor of 
soft power to assure our national security lies in stark 
contrast to reality. The majority of our vexing security 
challenges emanate from your three regions of the world: 
deterring an increasingly assertive China; preventing Iran from 
acquiring nuclear weapons; denying Al Qaeda and its affiliates 
safe havens in Afghanistan and elsewhere to launch attacks 
against us and our allies; and stemming the violence and 
instability in the Middle East and North Africa within the 
context of the Arab Awakening.
    These actors and others are surely watching how the United 
States responds to Russian aggression and some might be 
emboldened to further test U.S. resolve.
    Our allies and partners are also closely watching. But in 
contrast, they worry about U.S. disengagement and the staying 
power of U.S. security agreements.
    The administration has committed to a rebalance to the 
Asia-Pacific while also sustaining a heightened alert posture 
in the Middle East and North Africa.
    How well are we doing both? A declining defense budget, 
reduction in troop strength and force structure, and diminished 
readiness, suggests that we can't do both; or if we do, we do 
so at an increased risk to our forces and their missions.
    Nevertheless, the Department's new defense strategy and 
budget request take us down this path. I hope you can provide 
us with your best military judgment on the advisability of such 
an approach; how the strategy and budget reflect your mission 
requirements; and the implications for your command's force 
structure and needed capabilities.
    This is a challenging time and we appreciate the leadership 
and counsel that you all provide us.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 51.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman.
    Welcome to our very distinguished panel. We very much 
appreciate your service and your terrific work for our country.
    As the President--President, sorry--you mentioned the 
President, I almost called you the President, Mr. McKeon.
    As the chairman said, you know, we could do a hearing 
entirely on, gosh, a dozen different issues from each of your 
regions. So, it is going to be an interesting challenge as we 
touch upon all of those topics and the challenges that are 
there.
    But the chairman does correctly point out that at the top 
of this is the budget. It is certainly what we are thinking 
about.
    You live with whatever budget you are given and then you go 
out and try to meet the challenges that each of your commands 
offers, you know; but the focus on the budget and where we go 
is an important part of what we do here.
    I will say that it is wrong to assume that the President's 
budget reflects the President's opinion about, you know, where 
we think defense spending should go.
    What the President's budget reflects is the top-line number 
that was given to him by this Congress; that is the amount of 
money that we all collectively decided to spend on defense.
    So, I hope we will not waste a lot of time here saying 
that, ``Gosh, I wish the Administration would spend more money 
on it.'' If that is what we want to do, then we as Congress 
should get together and pass a budget that spends more money on 
it.
    I have yet to see a proposal to actually do that, because 
apparently, we both want to dramatically cut what government 
spends and then complain about the impacts of what happens when 
you dramatically cut what government spends.
    But the top-line number is the top-line number. That is 
what the President set the budget to.
    And all I have really heard from the committee thus far is 
complaints about the things that were cut. And if we don't cut 
some of those things--if we don't do a base closure, if we 
don't make some savings in personnel, if we don't retire the A-
10s or mothball 11 cruiser ships--then we have billions upon 
billions of dollars to make up somewhere else in the budget.
    And I hope as we go forward, we will have that discussion. 
We as a committee will honestly say, ``Look, I don't think we 
should mothball those 11 cruisers, so here is where I am going 
to make up that $5 billion from the cut.''
    Or alternatively, as the President has done, he sent us an 
additional $26 billion in spending on defense with the offsets 
to pay for it. Now, they are all offsets that the majority of 
Congress doesn't like--they are increases in taxes and a 
variety of different things.
    But if you want to spend $26 billion more on the defense 
budget and find the savings elsewhere, then that, too, is a 
conversation we should have.
    But to this point, since the budget has been released, all 
we have heard is an endless string of complaints about what is 
cut and an endless string of complaints about how the 
government is spending too much money.
    That sort of hypocrisy is not going to serve our national 
security well. We need to resolve that issue and figure it out.
    I will also point out that on the Ukraine, there are a 
whole lot of complex issues at work there, in terms of why 
Russia does what it does. I don't think the United States 
defense budget is really one of them. Because back in 2008, 
when we had a defense budget well over $700 billion and George 
W. Bush was President, Putin felt no limitation whatsoever on 
going into Georgia and essentially taking over two separate 
provinces, which he hasn't given up, to date.
    So there are a lot of complex issues at work here. I hope 
that we will understand them in their full context and work out 
in a nonpartisan way to try to find out what the best solutions 
are.
    Now, given your different areas, I will just touch on one I 
think is most important in each of yours.
    Afghanistan, we are very interested in, General Austin. As, 
you know, President Karzai continues to cause us problems by 
not signing the Bilateral Security Agreement [BSA]--how you 
think we should best handle that.
    I don't believe that a zero option is the right way to go. 
We need a presence past the end of 2014 in order to continue to 
secure the transition that we have worked so hard to secure in 
Afghanistan; but how do we get there, given the fact that we 
can't get the BSA signed?
    General Rodriguez, particularly interested in Somalia and 
the Horn of Africa where AQAP [Al Qaeda in the Arabian 
Peninsula] is most active, and the partnerships that we have 
built there. I think it is a real model for how we can have 
influence without having to spend as much money or commit as 
much troops.
    Our working relationships with Ethiopia, Kenya, and Uganda, 
as well as others in the region, have really been a huge force 
multiplier in a critical part of the world. Curious, how that 
is going forward.
    And then of course, in Asia, you know, our ongoing 
relationship with China. I was deeply encouraged that China and 
Taiwan not long ago had their first, I guess China would be 
reluctant to call it bilateral, let's just say their first 
meeting in forever. And I think there is some promise there. On 
the other hand, there are still many, many challenges in terms 
of how China overreaches on a variety of different issues, so I 
would be curious, in your viewpoints, as to how we work that 
out.
    Again, thank you very much, we have a lot of ground to 
cover. I will yield back, and I thank the chairman for this 
hearing.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 53.]
    The Chairman. Thank you. Admiral, you want to lead off?

   STATEMENT OF ADM SAMUEL J. LOCKLEAR, USN, COMMANDER, U.S. 
                        PACIFIC COMMAND

    Admiral Locklear. Thank you, sir. Mr. Chairman, Congressman 
Smith, and distinguished members of the committee, thank you 
for the opportunity to appear before you today. For 2 years, I 
have had the honor and the privilege of leading the exceptional 
men and women, both military and civilian, throughout the 
United States Pacific Command [PACOM]. They are not only 
skilled professionals who are dedicated to the defense of our 
great Nation, but within Pacific Command they serve as superb 
ambassadors and truly represent the values and strengths of our 
great Nation. We continue to work to ensure they are well-
trained, that they are well-equipped, and that they are well-
led to meet the challenges we are facing in the 21st century. 
So, I want to publicly thank them and their families for their 
sacrifices.
    So, when I spoke to you last year, one day ago last year, I 
highlighted my concern of several issues that could challenge 
the security environment across the Pacific Command area of 
responsibility [AOR], which, in my view, I look at it as the 
Indo-Asia-Pacific. Those challenges included the potential for 
significant humanitarian disasters; an increasingly dangerous 
and unpredictable North Korea; the continued escalation of 
complex territorial disputes; growing challenges to our freedom 
of action in the shared domains of the sea, the airspace, and 
cyberspace; growing regional transnational threats; and 
significant challenges associated with China's emergence as a 
global economic power and a regional military power.
    And during the past year, we have been witness to all of 
these challenges, and our forces have been very busy attempting 
to secure the peace and defending U.S. interests throughout 
half of the globe. We have done our very best to remain ready 
to respond to crisis and contingency, although that we have 
assumed greater risk. We have maintained focus on the key 
aspects of the rebalance to the Asia-Pacific, strengthening our 
alliances and partnerships and improving our posture and 
presence and developing the concepts and capabilities required 
by today's and tomorrow's security environment. And we have 
done all this against the backdrop of continued fiscal and 
resource uncertainty, and the resultant diminishing readiness 
and availability of our joint force.
    I would like to thank the committee for your continued 
interest and support and I look forward to your questions.
    [The prepared statement of Admiral Locklear can be found in 
the Appendix on page 56.]
    The Chairman. Thank you. General Austin.

  STATEMENT OF GEN LLOYD J. AUSTIN III, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Austin. Good morning. Chairman McKeon, Ranking 
Member Smith, distinguished members of the committee, I want to 
thank you for the opportunity to appear here today to discuss 
the current posture and state of readiness of United States 
Central Command [CENTCOM]. I appreciate your strong and 
continued support of our men and women in uniform and their 
families, and I look forward to talking about them and the 
exceptional contributions that they are making on behalf of 
this command and our Nation.
    I am pleased to be here alongside my colleagues, two very 
distinguished warriors, Admiral Sam Locklear and General Dave 
Rodriguez. I will join them in making a few brief opening 
comments, and then I am prepared to answer your questions.
    I have been in command of CENTCOM for about a year now, and 
it has been an incredibly busy and productive period. We have 
dealt with a number of significant challenges to include the 
revolution in Egypt; the civil war in Syria that is severely 
impacting neighboring countries; Iranian aggression and malign 
activity; the perennial fight against Al Qaeda and other 
violent extremist organizations; and of course, our top 
priority, which is the operation in Afghanistan.
    The central region is an area fraught with turmoil, 
political instability and social upheaval, and economic 
stagnation. And while some may view it as a perpetual trouble 
spot, I don't believe that to be the case. When I look around 
the region, I see great potential for lasting improvement. But 
progress requires a clear understanding of the challenges and 
the particular circumstances.
    Much of what is occurring in the CENTCOM AOR is the 
manifestation of the underlying currents at play in that 
strategically important part of the world, and foremost among 
them are the growing ethno-sectarian divide, the struggle 
between moderates and extremists, the rejection of corruption 
of oppressive governments, and an expanding ``youth bulge'' 
comprised of young, educated, unemployed, and often 
disenfranchised individuals.
    And so, by understanding these currents, which are the root 
causes of the disruptive and destructive behaviors in the 
region, we and others are able to help mitigate the effects. We 
are also able to identify and pursue the many opportunities 
that are present amidst the challenges. And that has been and 
will remain our focus at Central Command. What occurs in the 
central region has shown to have significant and lasting 
impacts on the global economy, on our vital interests, and 
those of our partner nations. Thus, it is critical that we 
continue to do what is necessary to maintain our influence and 
access and to contribute to strengthening regional security and 
stability. We are also focused on building the capacity and 
capability of our allies, while further improving our military-
to-military relationships.
    I have traveled extensively over the past year throughout 
the Middle East and South and Central Asia, and I have talked 
at great length with senior government and military officials 
about the challenges and the opportunities present in the 
region, and I can assure you that the opinion and support of 
the United States is still widely sought and highly valued. Our 
regional partners have seen what we are able to accomplish, and 
they respect and appreciate our leadership. Our military 
relationships are as strong as they have ever been, and they 
are indeed the foundation of America's strategic partnerships 
with almost every country in our area of responsibility.
    The year ahead provides significant opportunities for the 
United States, together with our partners and our allies, both 
in the region and beyond. Opportunities to achieve diplomatic 
and military successes that will further contribute to improve 
security and stability in our area of responsibility. And 
certainly, while we remain pragmatic, we are also hopeful that 
the opportunity provided by the P5+1 [United States, Russia, 
China, United Kingdom, and France, plus Germany] and the Joint 
Plan of Action, for example, will have a positive outcome, and 
that could fundamentally change the region for the better. We 
are likewise encouraged by the tremendous progress made by the 
Afghans, and the opportunity that exists to establish a lasting 
partnership with the people of that country. It is a 
partnership that we want to have going forward, and the people 
of Afghanistan have made it clear that they want the same 
thing. And these are just two examples.
    The reality is that there are a number of opportunities 
present in the region, and the CENTCOM team stands postured and 
ready to do our part to pursue them, while also addressing the 
various challenges that exist in that complex and most 
important part of the world.
    Ours is a very challenging mission, and it is made even 
more difficult by the realities of the fiscal environment; but 
given the enormity of the stakes, we will do what is required, 
and we will continue to work closely with and support the 
efforts of our colleagues across the interagency, to ensure a 
whole-of-government approach that provides for lasting and 
positive outcomes.
    Ladies and gentlemen, our soldiers, sailors, airmen, 
marines, and coastguardsmen, and their families, have worked 
exceptionally hard over the past 13 years. I have had the honor 
of serving beside them in combat. I have been privileged to 
lead them as they did difficult work, under some of the most 
difficult conditions in the world, and I have been humbled by 
their acts of absolute selflessness, as they have made enormous 
sacrifices on almost a daily basis in support of the mission 
and in support of one another.
    I am incredibly proud of them, and I know that you are as 
well. Chairman McKeon, Ranking Member Smith, and members of the 
committee, thank you for continuing to provide the 
capabilities, authorities, and resources that we need to 
effectively execute our mission in the strategic environment 
that I have described. And most importantly, thank you again 
for the strong support that you consistently show to our 
service men and women and their families, particularly those 
associated with the United States Central Command. I look 
forward to your questions.
    [The prepared statement of General Austin can be found in 
the Appendix on page 82.]
    The Chairman. Thank you.
    General Rodriguez.

   STATEMENT OF GEN DAVID M. RODRIGUEZ, USA, COMMANDER, U.S. 
                         AFRICA COMMAND

    General Rodriguez. [Off mic.]
    The Chairman. Is your mic on, General?
    General Rodriguez. It is now, sir.
    Mr. Chairman, Ranking Member Smith, members of the 
committee, thank you for this opportunity to update you on the 
efforts of the United States Africa Command [AFRICOM]. I am 
honored to be testifying with General Austin and Admiral 
Locklear today. In light of the expanding connections between 
Africa Command, Central Command, and Pacific Command, I think 
it is fitting that we are appearing before this committee 
together.
    Africa Command is adapting our strategy and approach to 
address growing opportunities and threats to U.S. national 
interests. In the past year, we have seen progress in regional 
and multinational cooperation in counterterrorism, 
peacekeeping, maritime security, and countering the Lord's 
Resistance Army. The successes to date of the African Union 
mission in Somalia, French and United Nations activities in 
Mali, and the African Union's regional task force against the 
Lord's Resistance Army are examples of this progress.
    Along with this progress, Al Shabaab remains a persistent 
threat in East Africa, and is conducting more lethal and 
complex attacks, as demonstrated by the Westgate Mall attack in 
Nairobi last September, and the attack on the Somali 
presidential palace last month.
    Terrorist groups in North and West Africa are more actively 
sharing resources and planning attacks. And while piracy rates 
are stable after a steep decline in East Africa, they remain at 
concerning rates in West Africa.
    Our tailored contributions to building partner capacity and 
enabling partners are critical to mitigating immediate threats 
in countries like Somalia and Mali. By supporting the gradual 
development of effective and democratic African security 
institutions, and professional forces that respect civilian 
authority, our shaping activities also reduce the likelihood of 
U.S. involvement in future interventions in Africa.
    Our expanding security challenges in Africa make it vitally 
important that we align our resources with priorities across 
the globe, strengthen and leverage all our partnerships, and 
increase our operational flexibility.
    Sharpening our prioritization and deepening partnerships 
will help to mitigate risks and increase our effectiveness in a 
dynamic security environment.
    Our Nation will face tough decisions about risks and 
tradeoffs in the future, and Africa Command will continue to 
work collaboratively with other combatant commands and the 
Joint Staff to provide our best military advice to inform 
decisionmakers about managing risk in our area of 
responsibility and beyond.
    Thank you for your continued support to our mission and the 
men and women of Africa Command, who, every day, do their 
absolute best to make a difference for the United States.
    Thank you.
    [The prepared statement of General Rodriguez can be found 
in the Appendix on page 129.]
    The Chairman. Thank you.
    The ranking member was correct that the Secretary and the 
Joint Chiefs did not set the top line on the budget. The 
problem that we have, though, is--I think we cut too much out 
of Defense. I think probably most of the members of this 
committee agree.
    And the budget that they presented to us didn't take into 
account sequestration. I know the media gave a lot of attention 
to the cuts in the Army, that would take the Army down to the 
lowest level since World War II. And the number was 440,000. 
But when they presented that budget in an earlier meeting to 
us, the Secretary and General Dempsey--they said that 440,000 
would be if sequestration went away.
    If sequestration remains in effect and kicks back in at the 
end of this budget deal that they worked out for the next year, 
the troop level would actually have to go down to 420,000, 
which is even worse than the budget that they are presenting 
and talking to us about.
    What I would like to ask you gentlemen specifically--the 
reduction in troop strength and the force structure and the 
program terminations and delays--how will they affect your 
ability to meet your mission requirements and manage risks?
    The Secretary said this budget would cause increased risk. 
What are the most significant gaps and shortfalls that you will 
see in your commands as you move forward, given this budget?
    Admiral.
    Admiral Locklear. Thank you, sir.
    The problem for the Pacific Command is severalfold. One, it 
is--about 52 percent of the world is in the Pacific Command. 
Much of what we do in the Pacific Command, because of vast 
size--the fact that there are five of our treaty allies that 
are there. A growing number of partners. A growing amount of 
our economy, growing number of national security--or U.S. 
security issues in that region. A rising China--those things 
all make a security environment that is more complex, not to 
mention, a very unpredictable and increasingly dangerous North 
Korea situation.
    So, what we have endured in the last couple of years with 
the changes in the fiscal environment through sequestration is 
a requirement to try to keep the forces that are forward, they 
have to--what we would refer to as the crisis response forces--
those that would have to be able to respond quickly on the 
Korean Peninsula, that have to be able to respond should one of 
our allies be threatened.
    The services, through our request, have had to move 
readiness from the rest of the global force, in particular, the 
force that is here in CONUS [continental United States]--and to 
push it in our direction so that we can keep those forces that 
have to do something quickly ready. And they have done that.
    But it was at significant expense of the follow-on force. 
And the follow-on force are really what provide the deterrent 
value of the joint force, in general, in the Pacific AOR.
    So, the forces that would have to follow immediately on any 
crisis or contingency that come from the United States--the 
readiness levels, in my view, are unacceptable to be able to 
support that in the timelines that we would need. This has 
created a number of years, based on the projections of the 
budget, for the services to recover that readiness in the force 
that we have today.
    So, how has it impacted me otherwise? It is also--I also 
rely not only on the forces that are forward, but I rely on 
rotational force, particularly in the air and maritime area. Of 
the 52 percent of the world, only 17 percent of my part of the 
world is landmass. It happens that 6 out of every 10 people in 
the world live in that 17 percent. But the other 83 percent 
would be what I refer to as ``grand commons''--``global 
commons''--that have to be protected from a cyber or space, 
maritime, air perspective.
    And so, we will, because of the readiness of the force 
today--the depressed readiness of that force--the ability for 
the services to provide the type of maritime coverage, the air 
coverage of some of the key elements that we have historically 
needed in this part of the world for a crisis response have not 
been available to the level that I would consider acceptable 
risk.
    The Chairman. General.
    General Austin. Well, Mr. Chairman, as you know, Central 
Command is responsible for a smaller piece of the globe, but we 
own about 90 percent of the problems currently that our country 
is facing in terms of issues that have arisen. And my concern 
with a shrinking budget would be whether or not the services 
would have what they need to provide trained and ready forces 
in a timely fashion.
    I would be--I am further concerned about their ability to 
refurbish that critical equipment that we have used extensively 
over the past 13 years or so while we have been engaged in 
combat. And in addition to that, there are critical enablers, 
like ISR [intelligence, surveillance, and reconnaissance], 
that--you know, as the top line decreases, we have less of an 
ability to provide those critical enablers that I think have 
been game changers in our fights in the past.
    So, overall, Mr. Chairman, the ability of the services to 
provide those trained and ready forces and the critical 
enablers are what cause me greatest concern.
    The Chairman. Thank you.
    General.
    General Rodriguez. Sir, in the AFRICOM area of 
responsibility, the biggest risks that we see in the future are 
mainly in the intelligence area, as General Austin talked 
about. The intelligence, surveillance, and reconnaissance 
assets, as well as the intelligence personnel who support 
AFRICOM--many of them have been funded by OCO [Overseas 
Contingency Operations]. So, we are challenged in that area.
    We also have a significant amount of activity going on 
throughout the area of responsibility, and in very, very small 
elements. So, I worry about medical evacuation and personal 
recovery and mobility assets, some of which, you know, were 
challenged during the past year because of sequestration and 
because of the readiness levels that those mobility air and--
both helicopter and fixed-wing aviation assets were allowed to 
maintain.
    Thank you.
    The Chairman. I can remember years ago when Duncan Hunter 
was chairman or ranking member. He used to carry a little card 
that showed all the different shortfalls that you have each 
pointed out in your specific commands. And I remember what we 
did at that time was we asked if you had an additional amount 
of money, what would you buy? And I remember some of the things 
were bullets, canteens, tents.
    Basically, we were well under-equipped. And I am hearing 
the same thing. It is just different things, but it is the same 
thing--that you have needs that are unmet through this budget, 
which puts us at greater risk as we go forward.
    I appreciate your frankness and your ability to relate to 
us what your needs are.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    I will pick one of those regions of the world.
    General Rodriguez, can you tell us a little bit about--
update us on the situation in Mali and sort of West and North 
Africa, where you see the threats? Exactly how they have 
evolved in Mali and Libya, in sort of the very unstable part of 
the world where Al Qaeda and various affiliates are active. 
What are the groups we are worried about? How are we 
progressing in terms of being able to contain those threats?
    General Rodriguez. Yes, sir. Thank you.
    In northwest Africa, the threats that are there are from 
Libya, and really, only into CENTCOM area of responsibility in 
Egypt. And it stretches down through the Maghreb and Sahel 
regions down to northern Mali.
    The challenge in Mali was a very fragile situation with the 
government and the military leadership. And after Libya fell, 
there was a surge and a tremendous amount of fighters who 
flowed in and out of there, as well as arms, ammunition, 
explosives that have spread throughout the region. That is what 
caused the challenges in northern Mali, which both the French--
initially, an African Union force, and now the U.N. [United 
Nations] forces have disrupted and moved a little bit north out 
of the challenging areas in northern Mali, where they had a new 
election, and have started on the road to rebuilding that 
country.
    But between there and Libya, those support networks and 
movement of arms, ammunition, explosives, as well as personnel, 
continues to create security and stability challenges for those 
countries.
    And we are working with all of them, as well as working 
with our partners, mainly the French, but also the Italians, 
the Brits, the Moroccans--have all worked to support the 
efforts, as well as the Turks in Libya.
    So, what we are trying to do to help out the challenges in 
northwest Africa is work in a multinational effort, as I said 
down in Mali, 9 African nations going up to 16 are helping to 
participate there and regionalize the effort.
    And in Libya, four of our European partners and another 
African partner are going to help to build that security forces 
up there.
    They will continue to be challenged by borders and their 
inability to disrupt the movement and the flow of fighters and 
equipment, but we are going to continue to work to regionalize 
that problem and help all of them build the capacity to do it.
    Mr. Smith. Are there particular groups in that region that 
you think pose a transnational threat, or is it, at this point, 
primarily local conflicts?
    General Rodriguez. Most of them are local conflicts. 
Obviously, they have the will and the aspirations to do more 
than that.
    In the--from the European perspective, of course, they are 
much closer to the problem, so they are extremely concerned 
about the illegal movement of personnel and equipment and 
terrorists in their southern border.
    And it is--will depend, obviously, on how much pressure 
that we can continue to put on them with our--you know, in 
cooperation with our allies, whether they will be able to 
expand their capabilities outside the region.
    Mr. Smith. Okay.
    General Rodriguez. The ones--the most troubling areas are 
in eastern Libya and southwestern Libya right now. But they 
flow and move, again, where they, you know, have the weakest 
government and security infrastructure.
    Mr. Smith. Thank you.
    And gentlemen, I literally have dozens of questions, but I 
want to get my colleagues in there. We have had opportunity to 
speak before the hearing. So, I thank you for your service.
    I yield back.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Admiral, Generals--thank you for your service and for the 
service of all those who serve under your commands.
    You have heard two lines of questions really set forth 
before this committee--one is that we should be limiting 
ourselves to asking questions about how much do we have to 
spend and how do we best allocate those dollars. Many of us 
reject that limitation, as I believe does the chairman, and 
believe we should also be asking what do we need to do to 
defend the United States of America?
    In asking that second set of questions, there are some who 
will characterize that as an endless chain of complaints about 
cuts. We reject that characterization.
    We believe that it is an endless chain of warnings, 
warnings that the most expensive acquisition the United States 
could have over the next 10 years would be cheap armies and 
cheap navies.
    And to that, Admiral Locklear, you have the distinct 
privilege and responsibility of having under your command a 
body of water that both the President and the Secretary of 
Defense have said it is absolutely crucial to the national 
defense strategy of this country over the next decade.
    Is it fair to say that almost all, if not all of the 
countries in that region, the Asia-Pacific area, are actually 
increasing their navies at this time?
    Admiral Locklear. I would say as a general statement, that 
is true. You know, we have 7 of the--it is the most militarized 
region of the world; not only navies--we have 7 of the 10 
largest armies in my AOR; we have all the largest navies.
    And many of our allies and our partners are growing 
maritime capabilities because for many decades, they relied 
solely on--primarily on the U.S. as an underwriter of maritime 
security--since World War II. And they focused internally on 
their militaries--on internal security.
    And as they have become more prosperous and more--in some 
cases, more democratic, they have become internally more 
secure, which is a good thing; it led the rise of Asia.
    But at the same time, now, they are looking at their 
commons and they are saying--into their economic zones--and 
they are saying, ``How do I know what is going on and how do I 
protect it?''
    So, they are building an ever more aggressive navy; 
submarine forces, high-end military capabilities.
    Mr. Forbes. Admiral, would it be fair to say that virtually 
every major contingency plan we have for that region--that our 
aircraft carriers are at the point or the front of that 
contingency plan?
    Admiral Locklear. I would say that in my AOR, that aircraft 
carriers play a significant role in any crisis or any 
contingency, whether it is a reaction to a humanitarian 
disaster like we just had in the Philippines, which was reacted 
to almost simultaneous at occurring by the aircraft carrier and 
the forces that were there and then the Marine forces that came 
in and helped the joint force buildup.
    But in any crisis or contingency, for this--for now and the 
foreseeable future, they play a significant role.
    Mr. Forbes. Do you see, based on current situations, any 
gaps in your carrier deployment that you either have now or see 
in the foreseeable future?
    Admiral Locklear. From my assessment, the global demand on 
maritime forces in general, which include our aircraft carrier 
force, far exceed what the Navy is able to resource.
    So, it has implications that push risk in my direction when 
those forces that I would need--I believe that acceptable risks 
are not available because they are either not ready or they are 
somewhere else in the world.
    Mr. Forbes. And we can argue over the number of ships that 
we should have in our Navy--some think 306, some 313, some 346.
    But let's put that on the table for a minute. If our Navy 
were to go down to 250 plus or minus ships, could we remain a 
superpower, based on your analysis and professional military 
judgment?
    Admiral Locklear. Well, I don't know that the size of a 
military is the only element of being a world power. But I do 
sense that world powers are globally dispersed in the maritime 
commons--probably in the air commons, as well as upcoming cyber 
and space commons.
    In my estimation, a navy that is--the Navy that we have 
today--can't support the global requirements. I mean, when I 
was a young officer, I never considered that we would be 
contemplating operations in the Antarctic, but that will come--
probably in the very near future.
    I couldn't have found the Horn of Africa probably on a 
chart--or wasn't familiar with it. But now, we operate 
routinely there.
    I would have never anticipated that there would be the kind 
of tensions in the vast South China Sea over territorial rights 
and fishing rights--or in the East China Sea.
    And so, I can't tell you at what number we would no longer 
become a global maritime power, but we are getting close.
    Mr. Forbes. Okay, thank you, Admiral.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, again, for being before us.
    I have a question for PACOM commander. Admiral, before I 
pose the question, I understand that countries like Vietnam are 
asking for a closer military cooperation with the U.S. as a 
result of the East Sea maritime dispute.
    I know that it is--that you are the military guy, but you 
do sit in on the civilian side as policy is being made.
    And I would strongly urge you, along with the Department of 
Defense, to take Vietnam's human rights issues into 
consideration before committing to any maritime security 
package--because I believe that this country has been really 
terrible in its human rights issues; they continue to say they 
are going to do something and then they just get worse.
    With that in mind, Admiral, can you provide this committee 
with your observations on the evolving security challenges 
presented by the ongoing maritime disputes in the East and 
South China Seas?
    And from a contingency standpoint, I mean, what would you 
consider would be our role if things begin to devolve and get 
out of hand, with respect to those disputes?
    Admiral Locklear. Thank you. And first, I would very much 
take your comments and counsel on the human rights.
    We track very closely with the State Department; we follow 
their lead to ensure that--and the Department of Justice to 
ensure that we are within the boundaries of what is legal to be 
able to do. And we are very sensitive to that because--for all 
the right reasons.
    If you take a look at the territorial disputes, you ask 
yourself, ``How did this all happen in this generation?'' Well, 
what--why has it--it has just now popped up.
    Well, reality--they have been around for a long time. But 
there hasn't been much motivation to have to deal with them.
    There were plenty of fish resources; energy resources 
weren't that important. China was not on the rise that it is 
today.
    And we didn't have, until the 1980s, which we are not a 
signatory to--we didn't have the U.N. Law of the Sea 
Convention, which defined how you would lay out what belongs to 
you and your EEZs [exclusive economic zones]--your economic 
zones.
    So, all that culminated in this century where now 
everybody--all these nations taking a look at, well, how do I 
ensure that for my sovereignty, that I have access to these in 
the way that I see them?
    So, in the East China Sea and in the north there, over the 
Senkaku Diaoyu Islands, there is the issue between China and 
Japan that you are all very familiar with.
    In that case, I think we made it clear--the role of the 
U.S. and the alliance with Japan and that those islands fall 
within what we consider a mutual defense treaty boundaries. And 
that has been stated widely by the Secretary of State; and so, 
we would--that is kind of the policy there.
    How that will play out in the long run between the Chinese 
and Japanese would be speculation. But at this stage, we are 
watching it very carefully.
    In the South China Sea, if you take a look at all the 
overlapping complaint--claims, it looks--it is like chicken 
soup. I mean, it is so complex--who would own what.
    And so, there is really--it might be the only way forward 
is for them to use the international law--international 
tribunals to be able to come to agreement. And we have seen 
successes of that throughout the AOR where countries come 
together--they get a tribunal to be able to look at it and then 
they accept that.
    What is complicated, though, I think is the perspective 
that the PRC [People's Republic of China] or China has on their 
claims and the way that they are approaching those.
    First, they don't--they take a historic view of the South 
China Sea and they have a--what I think is a loosely defined 
historic nine-dash line, which basically gives them the entire 
fishing rights and mineral rights and EEZ rights to the South 
China Sea.
    And this is in direct conflict with many of their neighbors 
who have similar claims and are looking to protect them.
    There is--PRC, or China, has also done things, I think, 
that exacerbated the situation by establishment of an air 
defense zone in the East China Sea. And you understand what the 
U.S. position is on that.
    So, the way ahead here is, first of all, I think that the 
role of an ASEAN [Association of Southeast Asian Nations] is 
important. That the 10 nations of ASEAN who have equities, 
particularly in this part of the world, have got to be 
supported. And they have--they need to come together and to 
have a voice on how these things are dealt with. In particular, 
as it relates to how they deal with China.
    They very much need to go forward quickly on a code of 
conduct that China needs to agree with to prevent 
miscalculation in the South China Sea.
    Our role on it is--number one, is to be able to sense and 
understand what is going on. So, ISR assets are very important 
to me in that part of the world.
    And then for us to be able to share information where 
necessary with our allies and with our partners so that there 
is a common understanding of what is actually happening in 
there.
    But in the end, these things will need to be solved through 
arbitration, through legal means, through international forums, 
and not through coercion, which, we, as a U.S. policy, do not 
support coercive behavior to get to your claims by any 
claimant.
    Ms. Sanchez. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Wilson.
    Ms. Sanchez. I appreciate it.
    Mr. Wilson. Thank you, Mr. Chairman, and thank you all for 
being here today.
    I am very grateful. I have four sons currently serving in 
the military. At different times, they have been under your 
command. And I have always had faith in your leadership and 
your service, so thank you very, very much.
    General Rodriguez, in your opinion, if AFRICOM headquarters 
were relocated to the continental United States, would you be 
able to accomplish your mission effectively?
    General Rodriguez. Sir, the Secretary of Defense--the 
former one looked at that, and the recommendation was to 
continue to leave it where it was. The strengths of keeping it 
in Europe is the close coordination with our international 
partners mainly, who are in Europe, as well as access to the 
continent. So, right now, for the foreseeable future, we are 
going to continue to leave it in that location.
    Mr. Wilson. And, well, if it ever relocates to the 
continental United States, Charleston, South Carolina, comes to 
mind. With military facilities and--we also have a shared 
culture with West Africa, so there is a relationship which is 
very positive.
    And, General Austin, what potential options and courses of 
actions have we considered if the situation in Iraq continues 
to deteriorate, allowing Al Qaeda's increasing presence and 
influence, which is creating safe havens to attack America?
    General Austin. Thank you, sir.
    This is an issue that the Iraqis have to solve for 
themselves. And I think we can and should do some things to 
help them, because we face a common enemy.
    As you know, we have spent a considerable amount of time 
battling Al Qaeda in Iraq in the past. And as that enemy 
resurfaces, I think it is prudent for us to do everything 
within our power to ensure that we help countries in the 
region, specifically Iraq, battle this enemy. And we are doing 
some things.
    As you know, sir, we have provided them some munitions and 
some weapons, based upon their request. You know, I have 
engaged Prime Minister Maliki personally. I have talked to 
their senior leaders about what they are doing, and revisited 
some lessons learned from the past in terms of how you combat 
the type of enemy that they are currently faced with.
    But, again, it is in our best interest to make sure that 
they can address this problem and keep it from further 
spreading.
    Now, part of the solution--a major part of the solution is 
going to have to be a political solution. They are going to 
have to accommodate the Sunnis in a much greater way. And I 
think that counsel has been provided to the prime minister from 
a number of people.
    Mr. Wilson. And, general, thank you very much. I had two 
sons serve in Iraq, and so it was, indeed, painfully obvious 
the Sunni-Shiite divide. And, as you say, it needs to be 
bridged.
    Admiral Locklear, the Joint POW/MIA [Prisoner of War/
Missing in Action] Accounting Command's POW/MIA mission can 
assist PACOM in building partnerships with countries in the 
region capitalizing on the humanitarian aspect of JPAC's [Joint 
POW/MIA Accounting Command] mission.
    Do you feel this is a useful tool for the PACOM commander? 
Additionally, if JPAC were not part of PACOM, but a worldwide 
asset, would you be able to capitalize on the mission of 
building partnerships?
    Admiral Locklear. Well, first, let me say that the mission 
that JPAC does--already, they are a global outfit already. And 
the mission they do is essential, I think, for how we define 
ourselves as a military, as a nation--the fact that we show to 
the rest of the world that we go to great lengths to go bring 
our fallen MIAs home when we can find them is absolutely the 
right thing to do.
    I think that they do--in fact, I know they do play a 
significant role in our interaction with nations throughout my 
AOR. In particular, where we can encourage through this 
humanitarian mission, which--I would call it that--the access 
to places where we may not have access.
    So, we have very successful, ongoing operations as our 
host, for instance, in Vietnam. And we are looking for 
opportunities in Indonesia. Just last year, we were almost 
ready to move into North Korea, just before there was a 
provocation. And we were not--we were unable to do that, but 
that would have been--an almost unheard of thing is to have 
U.S. forces, U.S. scientists supported by JPAC in North Korea. 
Unfortunately, we weren't able to survive.
    If they are aligned as a--as you put it, as a more global 
outfit, does it impact--I don't think--not necessarily. I think 
any operation that JPAC would do--recovery--that was in my AOR 
would have to be coordinated, as it would be with any of these 
other COCOMs [combatant commands], should there be the 
requirement in their command. So, I don't see that as a 
problem.
    Mr. Wilson. Thank you. And thank you for leaving no one 
behind.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you to all of 
you for being here, and, of course, for your extraordinary 
service.
    Admiral Locklear, just to follow up a little bit--and I am 
sorry I ran in on the middle of that response, but when you 
look at the budget request of the $128 million for military 
infrastructure in the AOR, what--what about that concerns you 
in some ways? Do you--what is it that you really believe is so 
critical to do? And is this going to cover it?
    And also, where else do you think we really need to be 
looking in terms of that infrastructure?
    Admiral Locklear. Well, thank you.
    In my AOR, there is historic infrastructure that we support 
through longstanding alliances with Japan, Korea. And so, that 
infrastructure is important as it relates to the success of 
that alliance as we go forward. And both of those alliances in 
Japan and Korea, I think, will continue for the long term. And 
that infrastructure needs to be in place to support the 
alliance properly.
    So, that is the kind of--that infrastructure. We also have 
the infrastructure that is in our territories and the 
infrastructure that is in Hawaii, for instance, that is 
important. As you look at the vastness of the Pacific--the 
forces that generate and the command and control from Hawaii as 
we look forward into Guam and we look forward into the 
theater--all that becomes important for us to be able to ensure 
that all the blood and sweat that the U.S. put into gaining 
access to those back in the 1940s, that we maintain that 
infrastructure in a way that we can access it when it is in our 
national interest to be able to do that.
    We are also, though, not going to build any more bases 
overseas in other countries. We have made that decision. We are 
going forward with our allies and our partners to look at 
opportunities for us to partner together, to look for access 
agreements.
    The ongoing operations that we have in the northern 
territories of Australia--where we are partnering with them to 
get to use ranges and to have some access on a mutually 
agreeable basis.
    We are looking for the opportunity to close an access 
agreement with the Philippines that allows us to provide 
support to their minimum credible defense. At the same time, to 
be able to position ourselves better for everything from 
humanitarian assistance to disaster relief.
    And with that, there are some infrastructure requirements 
that come. And I know that there is always a competition 
between, well, what you build at home and what you build 
overseas. I can assure you that when we look at this, we keep 
that in mind, and that we look for opportunities to leverage 
our allies and our partners as heavily as we can. Because they 
all have--most of them growing economies. Most of them have 
growing militaries. And we are figuring that into our long-term 
strategy.
    Mrs. Davis. Okay, thank you. I appreciate that.
    I was looking for a little more specifics in terms of where 
you might see a shortfall that really needs to be addressed. 
And if you could provide me with that later, that would be 
helpful. Thank you.
    Admiral Locklear. Be happy to.
    [The information referred to can be found in the Appendix 
on page 147.]
    Mrs. Davis. General Austin, I think we are all concerned 
about what is going to happen in Afghanistan. Having traveled 
there on numerous occasions, and particularly, meeting with 
women in rural areas, as well as the parliamentarians--how do 
you--I mean, how do we really talk about, I think, ensuring 
that the strides that have been made for women, particularly, 
and girls in education, are not going to be lost, as we move 
forward--as they move forward?
    I think this has always been about Afghans--securing 
Afghans. But at the same time, we know that it is going to take 
more than that.
    General Austin. Well, thank you, ma'am. I think it is--I 
mean, there is not much question in anyone's mind that, you 
know, the presence of the coalition here for, you know, some 
time in the future, will help to allow this wonderful thing 
that has begun to happen continue to evolve.
    And, as you know, since you have been there a number of 
times, you know, Afghanistan was one of the most repressive 
countries in the world with respect to women's rights. And as 
we look at, you know, the impact that we have had some 13 years 
later, it really is remarkable.
    Having said that, there is a long way to go. We fully 
appreciate that. But, you know, back in 2003, when I first 
entered the country, to think that we would have one day a 
police chief in the city of Kabul, and perhaps one day soon, a 
police chief--a female police chief in the city of Herat--
sergeants major in the Army----
    Mrs. Davis. It--sir, I guess--if I could interrupt. Is 
there something specific that we can point to that signals that 
that is being done and I can----
    The Chairman. The gentlelady's time is expired.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    I know many members have interest in that question area, so 
perhaps you could expand your answers in writing.
    [The information referred to can be found in the Appendix 
on page 147.]
    Mr. Turner. General Austin, General Rodriguez, I recognize, 
of course, General Austin, that you are the commander for 
Central Command; and General Rodriguez, the commander of Africa 
Command.
    But my question to you is actually going to be about 
Europe--but it is not going to be about the recent change of 
events that have occurred with Russia and Ukraine; but it is 
going to be of the importance of our forward basing troops in 
Europe to your command.
    Now, there are many in Congress--some people, even, on this 
committee--who question the forward basing of our troops in 
Europe.
    Many times, I think it is a result because Congress misses 
the nexus of the importance of having those troops forward 
deployed for even your jobs and your positions.
    So, I wanted to ask you if you could, please, help make 
that connection for us. Could you please describe what effect 
it would have upon you if we did not have our troops forward 
based in Europe?
    And also, how do they enable your ability to carry out 
missions in Africa and the Middle East, moving critical 
supplies and supporting the missions that you currently have--
and also, in missions that you might foresee?
    And does it assist in, also, your ability to maintain 
international partnership? If you would, please, gentlemen, 
describe those resources that we have in Europe and how they 
are important to your commands. General Austin?
    General Austin. Well, certainly all the forces that we 
could have forward deployed that they are within support 
distance--reasonable distance to be able to quickly support 
us--it is value added. And I would say further that if they are 
stationed in the Central Command region, that is even better.
    But, you know, we have seen a number of examples of us 
using those--some of those capabilities; most recently, I think 
as everyone watched the potential strike against Syria, you 
know that there were forces from both Central Command and 
European Command that were involved in that planning and 
potential execution.
    We have shared, you know, capabilities throughout; you know 
that we have made good use of the hospitals that are based in 
European area. We have used that region to transit, in terms of 
providing supplies to our soldiers.
    So, it has been of great benefit and----
    Mr. Turner. General Austin--and I appreciate your 
statements of how it assists. But, you know, my understanding 
would be that you wouldn't be able to do the job you do if they 
were not there. Is that correct?
    If suddenly that asset was not there for you, wouldn't that 
significantly impact your operations?
    General Austin. It would have an impact, yes, sir. But----
    Mr. Turner. General Rodriguez--your view?
    General Rodriguez. Yes, sir. Those--first of all, the 
relationships with our European partners are critical because 
they are also helping--working together in our multinational 
efforts.
    They also provide the majority of the forces that I employ 
on the African continent and we have now put together some 
great force-sharing agreements where they are much more 
flexible.
    So, every which way you can think of, whether it be 
supportive forces, supportive bases, or logistical support, the 
bases in Europe are critical to our mission in Africa. Thank 
you.
    Mr. Turner. General, thank you.
    Admiral Locklear, as we now look to Russia having invaded 
the Ukraine, many are concerned that the adventurous 
environment might result in China taking action against either 
the Philippines or Japan.
    Do you have similar concerns that the current environment 
might encourage activities that we are all concerned about?
    Admiral Locklear. Well, my assessment today is that I don't 
have a lot of concerns that what is happening in Ukraine with 
Russia would motivate a change in the current status in the 
East China Sea or the South China Sea. So, I don't see that 
having a bearing. I am watching carefully what is coming out of 
the general press and what is being said by the diplomats in 
China about it; and my sense is that they are looking at this 
carefully to make sure that they--their perspective as a global 
leader--that they are having a measured perspective on this. 
That is my take of this----
    Mr. Turner. Admiral, quick question--are you more concerned 
about China's perhaps involvement with the Philippines or 
Japan, with respect to territorial conflicts?
    Admiral Locklear. Well, I am concerned about them both. I 
would say that in the--probably if I were going to look at it 
from the Chinese perspective, I think they are very clear of 
the position in the East China Sea--the U.S. positions there.
    As it relates to the broader, undefined areas in the South 
China Sea and the U.S. role in that position is less clearly 
defined. But we have been pretty firm on ensuring that every--
all the claimants understand the U.S. position on no coercion, 
no change to status quo.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    And Admiral and Generals--welcome to the hearing.
    And Admiral Locklear, I welcome you particularly because 
you have been able to brave the snowstorms and be here.
    Admiral, Guam has maintained a robust depot-level ship 
repair capability for several decades now.
    So, in 2005, the ship repair capability assisted in the 
emergent repair of the USS San Francisco, which ran into an 
underwater seamount. The repairs helped to keep the submarine 
operational until it could return to the West Coast for 
comprehensive repairs.
    How important, in your opinion, is the depot-level ship 
repair capability with a dry dock capability to your 
responsibilities in the Pacific AOR?
    Admiral Locklear. So, very important.
    Ms. Bordallo. Very important--thank you.
    Another question, Admiral, I have for you--this past 
December, the governor of Okinawa signed a landfill permit 
allowing for the initial construction of the runway of Henoko.
    Now, can you comment on the significance of this event and 
what that means for the realignment of Marines on Okinawa?
    Admiral Locklear. The signing of the landfill permit and 
the beginning work on the facility at Camp Schwab is not 
directly connected to the realignment of Marines. So, the 
realignment of Marines will go forward based on other 
initiatives such as infrastructure that has to be built in Guam 
and things like that.
    That said, I would say that, first of all, we are very 
happy that the government of Japan got the landfill permit 
signed.
    I think it is an indication of the government of Japan's 
commitment to the alliance and the changes necessary to make 
the alliance endure for the future. So, we are happy that it 
got signed.
    Ms. Bordallo. Thank you. The final question is also for 
you, Admiral, and addresses a developing issue. I would like to 
address the issue of illegal, unregulated, and unreported 
fishing in the Pacific AOR.
    Several of our allies and partners in the region are 
complaining about illegal fishing in their respective EEZs. 
Now, in some cases, this overfishing is causing economic and 
security impacts.
    Can you comment on the significance of this issue and what 
more the U.S. can do to combat this destabilizing activity?
    Admiral Locklear. Well, I think the likelihood of illegal 
fishing in Oceania will only go up as the global fisheries and 
supplies of fish becomes under more pressure and fishermen move 
to places where the fish actually are, which I think remains a 
reasonable amount of stocks in Oceania.
    Most of the nations, or most of the folks in Oceania--
island nations do not have the capability to properly, 
adequately monitor and understand what is happening in their 
economic zones. So, the ability for them to be taken advantage 
of to their economic detriment is growing.
    The Coast Guard in the Pacific and the U.S. Navy in the 
Pacific work closely together to support, where we can, 
programs that allow us to help the nations monitor their 
economic zones for illegal fishing.
    It is not comprehensive. It is the best we can do with the 
resources that we have over a vast, vast area.
    Ms. Bordallo. Thank you very much, Admiral. And I agree 
with you on the Coast Guard; I think we are undermanned and 
certainly could use more help in that area. Do you agree?
    Admiral Locklear. Well, I have to refer that to the 
commandant of the Coast Guard. But I have always been amazed of 
how much our Coast Guard does for how small it is.
    Ms. Bordallo. And a vast area that they have to look after. 
Well, thank you very much.
    And I yield back.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you all for your service; I appreciate 
that.
    General Austin, can you talk to us a little bit about the 
missions and risks associated with the residual force level 
less than 10,000 in Afghanistan after this year? And also, what 
is your best professional military judgment on what would 
happen in Afghanistan in a zero option?
    General Austin. Well, certainly I think a zero option would 
be very problematic for the country of Afghanistan. I think the 
military would fracture because of a lack of support, both 
fiscally and our inability to provide advice and counsel--
further advice and counsel to the Afghan security forces.
    I think it would also be bad for the region. I think we 
would see significant hedging activity with the key countries 
in that region; and again, that would lead towards greater 
instability for some time to come.
    With respect to the size of the force, as you know, our 
leadership is currently undergoing a decisionmaking process to 
really determine what that size of the force is going to be 
going forward.
    I would just say that the size of the force is always based 
upon what missions you are trying to accomplish. Our principal 
missions, you know, going forward, will be to continue to 
advise the Afghan security forces, also to counter terrorism 
and you--as you know, sir, that is why we went there in the 
first place--to really push back on the folks that attacked us 
and take away their capability to do that in the future.
    And so--as we do those things, I think it is necessary, 
also, to be able to provide force protection for the force that 
is deployed.
    And as you evaluate what is required to accomplish those 
missions, you know, the smaller you get, the greater the risk 
is to the mission, and the greater the risk to the force. So, 
those are the things that we have to balance out.
    Mr. Conaway. The--whatever cap is set, would personnel 
associated with the example of Bagram, the world-class trauma 
center there, would they count against that cap? In other 
words, the issue is, we currently have, for the last, all these 
years, enjoyed an opportunity to save lives--battlefield 
injuries--that--under the golden hour and those kind of things 
by having Bagram there, the trauma center there is an important 
issue.
    Will that go away under smaller forces? And we, in fact, 
begin to lose men and women----
    General Austin. Well, certainly----
    Mr. Conaway [continuing]. To combat injuries that would 
otherwise not be lost?
    General Austin. Yes. Pardon me, sir.
    Certainly, as, you know, we determine the size of the 
force, we will have to figure out what is required to support 
that force. And all of the forces there will be accounted for 
in that--whatever the number is.
    Mr. Conaway. Okay.
    Pivoting over to the Gulf region--we have two Air Force 
bases there, military bases there that are currently funded 
under OCO. If that is unable to pivot to the regular budget, 
what impact will losing the base at Qatar and UAE [United Arab 
Emirates] be to our ability to operate?
    General Austin. Well, these are critical capabilities to 
us, sir, in terms of our ability to respond rapidly to 
contingencies, our ability to provide command and control. And 
I think, you know, going forward, it will be essential that we 
maintain those capabilities if at all possible.
    Mr. Conaway. All right. And just for this public forum, can 
you give us a quick couple of seconds on efforts with respect 
to getting Sergeant Bergdahl back?
    General Austin. Well, I can tell you, sir, that, you know, 
I am committed--my entire command is committed to getting 
Sergeant Bergdahl back. I just met with his parents in 
December. They came down and spent 2 days in my headquarters, 
and we walked them through all the things that we were doing to 
get Bowe back. And that remains at the top of my list to get 
things done. And, you know, so we will--I give you my guarantee 
that we will remain focused on that.
    Mr. Conaway. All right, I appreciate that.
    Real quickly, Admiral, the--for years now, our boats 
transiting the Strait of Hormuz have been working against not 
having some sort of incident occur with the Iranian boats--
those kind of things. As we work in the South China Sea, do 
your boat drivers have the same kind of focus on what are the 
rules of engagement there?
    Admiral Locklear. Well, as I said earlier, we have 
encouraged the ASEAN nations, who operate out there, too, to 
pursue a code of conduct, particularly over the territorial 
disputes. But when it comes to maritime forces that are 
operating there, in particular, I assume you are referring to 
our interactions with the PLA [People's Liberation Army]----
    Mr. Conaway. Right.
    Admiral Locklear [continuing]. Navy, the Chinese Navy. We 
have mechanisms in place where we have dialogue. I mean, we 
have a--in general, our relationship with the Chinese today is 
cooperative, but competitive, and we know where there are areas 
where we have friction. And we do operate in close proximity to 
each other. And we have mechanisms that are run in my 
headquarters through--in Beijing, where we get together and 
talk about those issues so we can have a professional 
atmosphere. And so far, I would say that we are doing pretty 
well with each other, operating in those regions and respecting 
each other's professionalism and operating together.
    Mr. Conaway. All right. Thank you, gentlemen.
    The Chairman. Thank you.
    Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman. And thank you all for 
being here and all that you do to defend our country in a very 
dynamic and challenging world. So, I thank you for that.
    And, as we have heard some comment sort of debating the 
impact of budget cuts on all that you do, I am very mindful of 
what Admiral Mullen said some years ago, that--he has said, 
quote, ``I have said many times that I believe the single 
biggest threat to our national security is our debt.'' So, I 
also believe we have every responsibility to help eliminate 
that threat. We must and will do our part.
    And all that we are doing today is really in response to a 
daunting Federal budget deficit. So, I appreciate the tough 
choices that you are having to make.
    I also remember another hearing in which a gentleman who--I 
wish I had his name before me--said that ``a strategy without 
restraint--without fiscal restraint is not a strategy,'' and 
that ``fiscal restraint is really a forcing function.'' It 
forces some very difficult choices, but some--perhaps in the 
end, better choices. Because we have to think very thoughtfully 
about where to put our efforts.
    So, if we want something different, what we really need is 
a more balanced approach, and we look--in which we look not 
just at cuts across the discretionary budget and elsewhere, but 
also ways to bring revenue into the equation.
    So, this hearing is really a very important part of our way 
forward. And I appreciate all that you are doing.
    I am currently the ranking member of Oversight and 
Investigations, that subcommittee on this broader committee. 
And it has conducted a series of hearings involving the 
Department of Defense's response to the terrorist attack on the 
U.S. Embassy in Benghazi on September 11, 2012. And as a result 
of those hearings, the majority published a report of major 
findings last month.
    One of the report's major findings was that the, quote, 
``U.S. military's response to the Benghazi attack was severely 
degraded because of the location and readiness of U.S. 
forces,'' unquote.
    However, another one of the report's major findings was 
that, quote, ``The Department of Defense is working to correct 
many weaknesses revealed by the Benghazi attack,'' unquote.
    So, General Rodriguez, can you please talk about to the 
committee what changes the Defense Department has made to 
correct the issues that the Benghazi attack revealed? And in 
doing so, could you please address changes to the posture of 
armed aircraft, ISR platforms, and quick response ground 
forces?
    General Rodriguez. Yes, ma'am.
    First, the top of that list is the cooperation and 
coordination with the entire Intelligence Community as well as 
the State Department, so that we all have a common view of what 
is happening out there to ensure that the indication and the 
warnings are the best that we can possibly make them.
    The second thing is that we have moved forces and we have 
more capabilities ready to support challenges like that across 
the continent. We now have an East Africa Response Force 
stationed in Djibouti, an Army and Air Force combined--or joint 
force there to respond to situations at 15, or 15--excuse me--
of the high-threat, high-risk embassies across Africa. We also 
have a Special Purpose MAGTF [Marine Air-Ground Task Force] 
Crisis Response stationed up in Moron with--it has both air and 
ground assets. And we also have a Commander's In-Extremis Force 
that is now stationed in Germany at the European bases, as I 
said, that are so important to us.
    We also have got the authority to access European forces 
faster to include the mobility assets, as well as the air 
assets that you mentioned. And we also have the capability to 
also access CENTCOM forces or SOCOM [U.S. Special Operations 
Command] forces if that is required.
    We had an experience just recently in South Sudan. And just 
to show you the difference--first of all, the intelligence and 
warning was there. Now, it was good that it is closer than West 
Africa, because that is a different situation--West Africa. And 
we had special operations forces, the East African Response 
Force, the CENTCOM Crisis Response element. The CENTCOM knew 
who was their reserve, as well as the Special Purpose MAGTF, 
all combined to support the efforts down in South Sudan.
    The other thing I think that is important to understand is 
that the State Department, as well as the Marine Security 
Guards that support the State Department, have reinforced many 
of our embassies. And right now, I have also reinforced those 
embassies, so I have three forces at Libya, Tunis, and South 
Sudan to support the efforts of the State Department to 
continue to provide the mission that they do.
    Ms. Tsongas. What continues to----
    The Chairman. Thank you.
    The gentleman----
    Ms. Tsongas [continuing]. I lost my time. Thank you. I 
yield back.
    The Chairman. The gentlelady's time is expired.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Admiral Locklear, General Austin, General Rodriguez, thank 
you so much each of you for your service to our Nation, and 
thank you for joining us today.
    Admiral Locklear, I wanted to begin with you. I have spent 
a significant amount of time in your AOR looking at the force 
structure laydown, looking at readiness components, 
understanding what is going on. Also, having the time to speak 
to partners in the region, having conversations with them about 
our rebalance to the Asia-Pacific, and how they look at things. 
And you can imagine, they are positive about us putting the 
rebalance into place, but somewhat skeptical about what they 
have seen to this point with that.
    Can you tell me this? In looking at where we are going with 
the budget proposals, essentially with 11 cruisers being 
essentially put in suspended animation, with us not having the 
dollars available for the USS George Washington refueling, and 
looking at cutting short our LCS [littoral combat ship] build? 
Can you tell me, in light of that, and with the tyranny of 
distance that we have to deal with in the Asia-Pacific, and 
with us rebalancing there--obviously, the naval presence there 
is going to be an important part of that.
    How are you going to be situated with accomplishing your 
mission in the face of a declining naval presence with fewer 
ships at your avail?
    Admiral Locklear. Well, thank you, Mr. Wittman. And thanks 
for coming out to the AOR. I am sorry I missed you in Hawaii, 
but I understand that your visit was very well received.
    Mr. Wittman. Yes, yes.
    Admiral Locklear. It will--first of all, this isn't my--not 
just about maritime. There are similar types of issues that we 
are facing from a force availability in the Air Force, with 
ISR, with ``fight tonight'' forces ready for the Korean 
Peninsula--all those put pressure on the joint force to be able 
to provide it.
    So, if you extrapolate a smaller, more lethal military, 
when it comes to some aspects of our military, and those that 
have to be forward, that have to be providing presence, 
capacity is an aspect that has to be considered. I mean, it is 
great to talk about how capable everything has got to be, but, 
you know, one ship that is completely capable or one airplane 
that is completely capable--it can only be in really in one 
place at one time.
    Mr. Wittman. Exactly.
    Admiral Locklear. So, the natural extrapolation is, is that 
as the world--I mean, the world gets a vote in all this. And we 
are not out ginning this stuff up, I don't think. I mean, it is 
kind of happening to us.
    Mr. Wittman. Right.
    Admiral Locklear. And we are giving our best military 
advice on how we position ourselves for a couple things. One, 
what is the most dangerous situations you might face as it 
relates to American interests. But we also are pragmatic, and 
we say, ``What are the most likely things that might happen?''
    And then we put a demand signal on the joint force to 
produce resources for the most likely thing that will happen, 
kind of hedging our bets just in case it goes worse.
    So, on the maritime domain, you know, I think the Navy is 
going to have a hard time. With the numbers we have, we have a 
hard time today. Smaller numbers would be, for my AOR--assuming 
the rest of the world stays the way it is--would be difficult 
for me to maintain the type of maritime presence that I need.
    Mr. Wittman. Admiral, let me take it down another step to 
drill down a little bit further in asking you specifically 
about amphibious and logistic ships.
    As you know, in the AOR you talked about and we visited 
with marines here about having that presence and being able to 
have that first-strike capability, that forcible entry 
capability.
    Obviously, having those amphibious ships and logistic ships 
are an important part of that. Can you tell me, in light of 
where we are going with our L-class ships, can you tell me, in 
the AOR, the role of amphibious and logistic ships?
    How important is that to your mission set there within that 
combatant command? And then where does that leave us as we are 
looking at a declining number of amphibious and logistic ships 
as it relates to force readiness in the region?
    Admiral Locklear. Well, the role of logistic ships for my 
AOR really can't be understated--can be understated, but can't 
be overstated.
    The reality is just because of the way we operate forward, 
even though we have reliable allies and partners who help us, 
we still have to move things around, like fuel. I mean, the 
PACOM AOR--I think I am the largest consumer of fuel, 
resources, maybe in all of DOD [Department of Defense] and 
maybe in the world.
    And you have to be able to move that stuff around--you got 
to be able to move it reliably. So, what you can move around in 
peacetime, day to day, is much different than what you might be 
able to have to move around during contingency.
    So, we have to have a logistics force that is not just 
about day-to-day operations--one that has some surge 
capabilities that can be able to support it.
    So, we have to--the Navy and TRANSCOM [U.S. Transportation 
Command], they have to keep putting that in their equation; not 
just on the surface of the water, but also in the air.
    As it relates to amphibious capability, first I think the 
amphibious capability of our Marine Corps will be most 
apparent--the need of it in my AOR. I mean, just because of the 
littoral nature of it, because of the history of the way the 
Marine Corps has operated, because of the forward forces we 
have that are there, and their ability for crisis response.
    So, you can see, just in this Operation Damayan they had in 
the Philippines how quickly the Marines were able to respond 
with amphibious capability; that really made a big difference 
in turning that around--and that is just a HA/DR [humanitarian 
assistance/disaster relief] event. But----
    Mr. Wittman. Thank you.
    Admiral Locklear [continuing]. They've got to be able to 
get them around.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman and Ranking Member 
Smith.
    Generals, Admiral, thank you for being here.
    Admiral Locklear, aloha. Admiral, in your testimony, you 
referenced the rising China and you didn't say whether it was--
you didn't use the adjective threat.
    So, I am--want to give you the opportunity--that when you 
said a rising China, what were you referring to? And I am, of 
course, looking at it in terms of from your military 
perspective.
    Admiral Locklear. Well, first, I mean the rise of China 
globally, economically, and the fact that they have the desire 
or the ability to be able to build a military that--what I 
think they believe is necessary to defend their interests, both 
regionally and globally; we shouldn't be surprised by that.
    We should also be recognizing that as a rising China, there 
is benefit to the world for a peaceful, prosperous China that 
is transparent and that has--that participates in the 
international institutions and is a--I have said this before--
is a net provider of security rather than a net user of 
security. And I think that the future--they have the potential 
to be able to do that.
    There are many areas where we cooperate. We have a growing 
relationship between China and the U.S.--mil-to-mil 
relationship--that is, I would say it is slow but steady and we 
are making progress in kind of breaking down the barriers we 
have to understand each other. And this is an essential part, I 
think, of having a peaceful, prosperous, stable China that has 
a military that helps.
    They can have a significant role in what the outcome of 
North Korea is. And so, we need to encourage that.
    What's frustrated them, though, however, is what is kind of 
happening in their own backyard as it relates to their 
relations with some of our allies and our partners. As I said 
earlier, their kind of ambiguous claims on their--territorial 
claims in the South China Sea, establishment of air defense 
zones; these all complicate the security environment and make 
us wonder.
    Their military is on the rise. They reported today they are 
going to have a 12.2 percent increase in spending--just got 
reported this morning. And that is just what we can see; there 
is much more that might lie below that.
    So, whether the military rise--I think that is a given; it 
will. The question is, is it transparent? What is it used for? 
Is it in cooperation in the larger security environment that 
its neighbors and that we as a Pacific nation want them 
included?
    So, that remains the question; to see how they proceed. 
Some of the things that have happened in the last--since I 
talked to you last that have--in their own back--in their own 
local areas--have called into question how they are going to 
progress.
    Ms. Hanabusa. Now----
    Admiral Locklear. But----
    Ms. Hanabusa. And one of the frustrations that we have had 
is that we have had people come in and testify in the same 
seats that you are in and a lot of them feel--seem to feel that 
the administration doesn't have a clear China strategy.
    In other words, are they a threat or are they somebody that 
we are going to deal with economically or try to develop some 
kind of a global relationship with? But how can you do that out 
of the context of the military threat?
    So, for example, we also do know--we hear words like the 
ADIZ [air defense identification zone], A2AD [anti-access, area 
denial]; and we also know that we have the Scarborough Shoals 
issues--plus you even mentioned Senkaku Diaoyu today; and we 
also have the issues with Taiwan Straits.
    And in that context, we also know that they have very good 
short- and long-range ballistic missile capabilities; they have 
cruiser capabilities; and, of course, they have cyber 
capabilities.
    So, in that context, now, how prepared do you feel that you 
are now, in light of this budget, for the PACOM AOR, as the 
PACOM commander? Can you meet all of these threats if the 
threat size rises?
    Admiral Locklear. Well, I would say that the preeminence of 
the U.S. military power globally will remain in place for a 
long time; and that even a rising China won't be able to, be 
able to globally threaten that.
    I think where we have the most concern are in the region 
where we happen to have four or five very important allies to 
us, where the PRC has introduced some of their military 
capabilities that, on the surface, would appear to want to deny 
access to the United States and limit our ability to defend our 
allies and to protect our interests in that region.
    So, they have focused much of their military spending on 
those things that--I mean, they understand what they think are 
our weaknesses and our--and they focus their--it appears that 
they focus their industrial capability on being able to go 
after those.
    So, what we have to do--we have to have--whether the 
Chinese ever use these or not, they will probably proliferate. 
And so, these are challenges that will go not just in the local 
AOR, but they are going to proliferate into other parts of the 
world over this century.
    So, we have to be aware of what they are; we have to have 
the right research and development in place and we have to fund 
the types of capabilities that allow us to maintain our 
dominance and our asymmetric capabilities for the--where we 
have significant ones--and we do have significant advantages.
    Mr. Forbes [presiding]. The gentlelady's time----
    Ms. Hanabusa. Thank you.
    Mr. Forbes. Time is expired.
    The gentleman from Nevada, Dr. Heck, is recognized for 5 
minutes.
    Dr. Heck. Thank you, Mr. Chairman.
    Thank you all for being here today. Thank you for your long 
and distinguished service to our Nation and your commitment to 
our men and women in uniform.
    General Rodriguez, when we look at some of the other 
commands around PACOM, there are roughly 330,000 military and 
civilian personnel assigned within its AOR--CENTCOM, about 
90,000.
    And then we come to AFRICOM that has a lack of dedicated 
assigned forces, which seem to be perhaps constraining the 
command's ability to conduct long-term and robust planning and 
execution of missions on the continent, as well as creating 
some risk to the command's ability to respond to crises.
    What, if any, requests have you made to address these 
constraints and mitigate the risks, and what is the status of 
those requests?
    General Rodriguez. Thank you, sir. We have requested an 
allocation of forces that go year by year by assignment and we 
have been given a Special Purpose MAGTF Marine force; we have 
also been allocated a regionally aligned brigade from the U.S. 
Army.
    And then we have also got approved the force-sharing 
agreements with EUCOM [U.S. European Command] to also access 
some of their forces to be used on the African continent.
    As we look forward, we have asked for a regionally aligned 
division from the U.S. Army, as well as an intelligence 
brigade, minus from the Army, and a Theater Sustainment 
Organization, which is a tailored organization less than a 
brigade, as well as an engineer unit.
    So, those are the things that we are asking to be allocated 
to us in the future.
    Dr. Heck. And do you know the status of those requests?
    General Rodriguez. It is working through the process. It 
will probably be another 3 or 4 months before that 
decisionmaking process gets completed, sir.
    Dr. Heck. And where is the Special Purpose MAGTF located?
    General Rodriguez. The Special Purpose MAGTF is located at 
Moron, Spain.
    Dr. Heck. And the regionally aligned brigade?
    General Rodriguez. The regionally aligned brigade--the 
majority of the forces forward are at Djibouti. But they 
participate in exercises in theater security cooperation 
throughout the continent, sir.
    Dr. Heck. And the allocation by year--approximately how 
many forces are being requested in that yearly allocation?
    General Rodriguez. I would have to get you the exact 
number. And I will get that to you afterwards, sir.
    Dr. Heck. All right. Thank you.
    [The information referred to is classified and retained in 
the committee files.]
    Dr. Heck. I mean, obviously we are very concerned about--
especially in light of the situation in Benghazi--making sure 
that AFRICOM has the resources necessary to respond in a timely 
manner. So, please keep us apprised; keep me apprised of the 
request for those additional forces. We will----
    General Rodriguez. Will do, sir.
    Dr. Heck. Thank you.
    I yield back, Mr. Chair.
    Mr. Conaway [presiding]. Gentleman yields back.
    Ms. Duckworth, for 5 minutes.
    Ms. Duckworth. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here. I was disturbed to 
see that this year's proposed cuts to the National Guard's end 
strength and the seemingly escalation of words over the 
readiness threat levels for the National Guard and Reserve 
Forces. I would like to address that a little bit.
    General Rodriguez, you just talked about forces that are 
dedicated to AFRICOM. You didn't mention the State Partnership 
Program at all. Can you touch on what role they play?
    General Rodriguez. I can, ma'am. Thank you.
    We have eight states that are over in State Partnership 
Program. They perform a great role in building relationships, 
as well as building capacity of our partners.
    We have just expanded North Dakota from one country to 
three, and we are also putting more requests in to get a couple 
more State Partnership Programs. So they have been a long-term 
benefit to us in Africa.
    Ms. Duckworth. Thank you. General Austin, can you speak a 
little bit to the role of Guard and Reserve forces in CENTCOM 
for example, in the past year? Roughly how many flight hours 
were flown by Guard or Reserve pilots? The amount of work that 
is done by Guard and Reserve medical staff and hospital 
facilities in theater and the like?
    General Austin. Well, ma'am, you know that the support that 
has been provided in Afghanistan has been a tremendous help 
throughout. I would have to take the question for the record to 
get you the exact amount of hours that have been flown by Guard 
forces, but it has been substantial throughout the AOR. And 
they have contributed in a meaningful way.
    [The information referred to can be found in the Appendix 
on page 155.]
    Ms. Duckworth. Thank you. Admiral Locklear, can you speak a 
little bit in your AO [area of operations] as well? You just 
came back from Thailand, I believe, last month with Cobra Gold. 
Looking at Cobra Gold and Garuda Shield and all of the 
exercises that go on there, what role do Guard and Reserve 
forces play in your AO, in PACOM?
    Admiral Locklear. Well, they play an important role, even 
though sometimes not in large numbers. They bring some 
capabilities and capacities that are important to the AOR. So, 
very appreciative of them. We have seven State Partnership 
Programs in my AOR. There are areas that we would like to grow 
those in.
    Ms. Duckworth. Okay. General Austin, I would like to touch 
a little bit on the line of questioning that Mrs. Davis, my 
colleague from--the gentlelady from California had started on 
Afghanistan, and what we are doing specifically to grow women 
leaders in both the Afghan military, but also their police 
forces. Can you speak a bit more to that?
    General Austin. We continue to focus on recruiting more 
women into the force, and to train those women to assume 
greater roles of responsibility. Right now I think the ratio is 
about 1 percent of the total force is female. But having said 
that, I think we are working a number of lines of effort 
simultaneously. It is refreshing to see that we have our first 
fixed-wing pilot that has recently been trained and so there 
are more to follow in the pipeline. This is--as you know, 
ma'am, it is not an easy task. But I think where we are now, 
based upon where we started, is we are a long way away from a 
start point. And we will continue to emphasize--work with the 
Afghans to continue to emphasize this going forward.
    Ms. Duckworth. What are we doing specifically with being 
able to put these women in, say the Afghan--the police forces 
out into places where they are needed? When I visited 
Afghanistan last year, one of the things that the women told us 
was that they didn't trust that they could go to the local 
police or military to report abuse, or report issues because 
there were no women there. When I spoke with the women in the 
military, and also their police forces, they said that--well, 
there are not even barracks there with bathrooms that they are 
allowed to use. So they can't be forward deployed to those 
areas. And if they can't get out there, then they can't do 
their jobs.
    General Austin. Yes, ma'am. This is a challenge. And, you 
know, it is something that we are going to have to continue to 
work with the Afghan leadership on in moving forward. Again, I 
think there is a police chief that is going to take a position 
in Herat, which is out in the west as you know, in the near 
future. That is encouraging. But we are going to have to 
continue to emphasize to the Afghan leadership that, in order 
to get the women out to where they need to be and provide the 
right protections for them, there are things that they are 
going to need to continue to focus on. And we are just not 
there yet. So.
    Ms. Duckworth. All right. Thank you. I yield back, Mr. 
Chairman.
    The Chairman [presiding]. Thank you. Mr. Scott.
    Mr. Scott. Thank you Mr. Chairman. Gentleman, thank you for 
being here today and General Dempsey testified that the world 
was going to continue to be unpredictable, complex, and 
dangerous and would continue to surprise us in many unpleasant 
ways, before the Senate. And Admiral, I know that while we can 
have a plane or a boat, it can only be in one place at one 
time. And that brings me to an issue that all three of you have 
talked about, which is the ISR platforms and how we can use 
that as force multipliers. Certainly something that we can 
provide that many countries can't.
    And the JSTARS [Joint Surveillance and Target Attack Radar 
System] fly out of my district. It is a platform that we have 
hoped to recapitalize so that we can get more intelligence to 
you in a faster manner. But if you could each speak to theater-
wide ISR capabilities, whether or not you feel like they are 
properly resourced and what roles the JSTARS have played in 
each of your areas of command?
    Admiral Locklear. Well, I would say from my PACOM 
perspective, our ISR requirements are underresourced. And that 
is including our ISR resources for the Korean peninsula, as 
well as the growing number of places that we have to keep track 
of throughout this AOR. And that is not just in air-breathing 
ISR, it is all the way from your national technical means down 
all the way through HUMINT [human intelligence]. And so each 
year I make those requirements known to the DNI, Director of 
National Intelligence, about what my priorities are. And we are 
seeing some improvement, but we are still underresourced.
    In the area of JSTARS, the JSTARS--I think every COCOM 
would tell you that they are--that JSTARS play and the 
capability that the JSTARS bring is just critical. The first, 
it provides--in my AOR, it provides a combat battle management 
capability that is important if I get into a comms 
[communications] or denied environment. So if my command and 
control from my central command nodes is cut off, which is 
highly likely in a conflict in my AOR, and this will--and that 
command and control capability is critical. It also provides 
unique capabilities with moving target capability, that--
important for, like General Scaparrotti in Korea, as he tries 
to keep track of the fourth largest army in the world that is 
in position to be able to strike Seoul within minutes. And so 
those type of capabilities, I think for my AOR, are very 
important.
    General Austin. Well, sir, it is--likewise, ISR is a 
critical part of what we do in terms of warfighting. And even 
in those places where we are not engaged in kinetic activity on 
a daily basis, they help us remain aware of what is going on in 
the AOR. I have about--currently about--because of the fight in 
Afghanistan, about 85 percent of the inventory focused on the 
CENTCOM AOR. That helps me with activities in Afghanistan, but 
also helps our efforts as we prosecute the fight against 
terrorists in ungoverned spaces like Yemen and in the FATA 
[Federally Administered Tribal Areas] and other places.
    That is about 62 percent of what I, you know, requested. 
Because you know, it is just not in the inventory to give us 
everything that we need. With respect to JSTARS, I can tell you 
that as a commander in the--a division commander in Afghanistan 
or a core commander in Iraq, the JSTARS platform was very, very 
helpful to us in prosecuting the fight. As Sam said, you know, 
moving target indicators--moving target indicator capability 
was really, really beneficial. And that command and control 
capability--that helped to augment was also very good.
    So an essential part of what we did in the past and 
certainly, you know, the more of that we can get, the better.
    General Rodriguez. Yes, thank you. The JSTARS capability, 
as both my partners mentioned, is usually important in Africa. 
It is good because of the broad space that it covers, and also 
bridges the gap between the national technical means and the 
smaller, lighter aircraft to better focus their efforts on 
where to look. As far--far as the entire intelligence, 
surveillance, and reconnaissance efforts, everybody needs more, 
so we are working with our partners to help do the intelligence 
sharing, which is so important. Because the situational 
understanding we have to have in AFRICOM AOR to be able to 
respond quickly is usually important to all of us. So we work 
with all of our partners on that.
    Mr. Scott. Thank you gentlemen--do you have----
    The Chairman. Thank you.
    Mr. Scott [continuing]. The ISR that you need.
    Mr. Garamendi. Thank you, Mr. Chairman. Several things 
here. Mr. Chairman, you started off the hearing talking about 
the budget. The President actually provides some $24 billion 
additional over and above what was originally in the--and my 
understanding is that at this moment, the Republican caucus is 
rejecting that $24 billion additional dollars for the military. 
I know that is not where you are, but you might look more 
closely at the options and opportunities that the President has 
provided.
    Also the sequestration, which we constantly talk about 
here, came about as a direct result of the threat to default on 
the American debt. And that led to the sequestration and the 
compromise that was put together at that time. I know some 
members of this committee did not vote for that, but the option 
was to default on the American debt. That was brought to us by 
the Republican caucus.
    General Austin, your written testimony really focuses much 
more on the social, economic, and political issues in your 
command. I am delighted that you did that. At least in your 
written testimony. Here, we tend to focus more on the military 
side of it. But it seems to me that you are correctly paying a 
great deal of attention to economic development, social 
development, education and political development in your 
region.
    Without that, we are not going to be successful. We have 
spent $1 trillion in Afghanistan, $1 trillion in Iraq. It is 
debatable whether it was a positive outcome or not. That is 
still in doubt. So I really urge you to continue to do that, 
and to continue to focus the attention of your command on those 
issues. And, I would appreciate hearing a comment on that, if 
you would, sir.
    General Austin. Yes, sir. I certainly agree with you that 
in order to address the issues that exist in the region, and in 
order to work to push things in a direction that trends more 
towards security and stability, it is going to require a 
constant whole-of-government approach. And as you have pointed 
out, sir, the military is an instrument of power, but it is 
only one of many.
    And so, I think we are going to have to work more closely 
with our partners in the region, to use everything that is in 
the inventory to push things in the right direction, and take 
advantage of opportunities.
    Mr. Garamendi. I really appreciate you are heading in that 
direction, at least your testimony indicates that is where your 
mind is, and I think that all is to our benefit.
    I also want to push back on Mr. Wilson, who thinks you 
ought--thinks Mr. Rodriguez ought to be located in South 
Carolina.
    I think that would be a particularly unwise thing to do, 
General Rodriguez. You appropriately pointed out Africa and 
Europe have a long history together. And to be able to be in 
Europe, working with our allies, who have that history in 
Africa, is extremely important.
    South Carolina is a wonderful place, but it is a long way 
and significantly disconnected.
    I don't need your comment on it. I am pushing back here, so 
that people are aware, if he tries on the NDAA [National 
Defense Authorization Act] to move you, I will push back. I 
hope others do also.
    With regard to the ISR, General Rodriguez, if you could 
comment briefly about what you, specifically, need. And I am 
concerned here about the U-2 and its longevity or whether it is 
short or long is not yet clear.
    General Rodriguez. Yes, sir. Well, you know, again, based 
on the prioritization and decisionmaking in the Department of 
Defense, you know, we get the share that they think is best.
    It is a little bit less than both what CENTCOM and PACOM 
get, but that is, you know, a prioritization that they continue 
to, you know, are forced to make.
    And I think that what we are trying to do is creatively 
figure out how we can, you know, leverage all our allies, all 
our African partners, to both do that. European countries also 
have ISRs so we are trying to leverage all that.
    But we are going to continue to be a risk and a challenge 
because of the inability to source all the ISR that is needed.
    Mr. Garamendi. Yes, I would just--I am sure the committee 
is aware, but I will point out to those of us that are here and 
for the record, that the Air Force has flip-flopped three times 
on what to do with the Global Hawk. It now apparently is in 
line to continue. It is an asset that--you need it in the 
central--in Mali and in that area.
    The U-2 is presumably scheduled to be--to go, and what is 
going to replace it?
    These are fundamental questions. All three of you spoke to 
the need of ISR. That is gonna be a major issue.
    So I thank you.
    And, with that, Mr. Chairman, my 1--2 seconds over.
    The Chairman. Thank you.
    And, just to correct the record, the President actually put 
in $56 billion in his budget over and above the budget deal 
that was worked out between the House and the Senate last fall 
and signed by the President.
    Twenty-six billion dollars to go to defense and $30 billion 
to go to social spending, which continues the trend that he had 
had in previous budgets where we tried to solve the budget on 
the backs of the military, taking half of the cuts out of the 
military, when they only account for about 17 percent, 18 
percent, of the budget.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to first of all thank the two generals, not 
snubbing the admiral, but both of you have commanded two of my 
sons, in both Afghanistan and Iraq, and now in AFRICOM, one of 
them who is currently deployed. So I want to thank you for your 
service and your leadership. It has been well received by their 
parents, that is for sure.
    Admiral, as it relates to CHAMP [Counter-Electronics High 
Power Microwave Advanced Missile Project], and for those that 
are unfamiliar with CHAMP in the committee, it is a microwave 
emitter that is utilized, can be flown to disable and knock out 
enemy electronics.
    Air Force has had a successful test with CHAMP. It was 
placed on a cruise missile. They expect deployment out in 2020, 
2025, because they want to develop another platform, which I am 
not opposed to.
    But currently, we have an excess of cruise missiles. We 
have the ability to outfit some of those with CHAMP. That could 
help, I would think, in PACOM particularly, as a stand-off 
weapon, but one that doesn't have any collateral damage, 
doesn't injure or destroy anything, but does knock out the 
enemy's ability to target.
    Do you have any comments as it would help in PACOM?
    Admiral Locklear. Well, to the degree that we use the 
entire electromagnetic spectrum to our advantage, and in any 
potential contingency or conflict you would try to deny the 
advantage of any potential adversary that--their capability to 
use it.
    Things such as the microwave emitters, those types of 
technologies, are of a growing importance in a more technically 
sophisticated world. Having the capabilities that something 
like that demonstrator would provide in my AOR would be an 
important aspect of any planning I would do.
    Mr. Nugent. And I would think getting it in 18 months 
versus--like I said, I don't disagree with the Air Force's 
projection to do something reusable in 2025, but to have it 
available to you in 18 months, to your inventory, at least, to 
make decisions as to how you move forward, would that be 
helpful or not?
    Admiral Locklear. Well, I would say that of course the Air 
Force will have to speak for the decisions they make on that, 
but I understand the significant pressure that they are under 
to try to make good decisions. So we have a joint force, and 
want to ensure that we make near-term investments that, such as 
this, that they facilitate the longer-term investment.
    So if this particular platform was a proper stepping stone 
to a greater capability in the future, why wouldn't I want it 
sooner than later?
    Yes, sir.
    Mr. Nugent. I don't disagree with you.
    Changing somewhat to General Austin, it was just reported 
in the news, reference to Israel interrupting a flow of weapons 
by the sea, coming from Iran, or at least manufactured in 
Syria, but through, you know, through the Sudan, that was going 
to go to Egypt and then over to the fight as it relates against 
Israel by Gaza.
    You know, all the discussion right now with Iran is 
referenced to their nuclear capabilities. But, you know, as we 
move forward, right now, we see them as it relates to, you 
know, conventional arms, supplying and, you know, they are 
terrorists, support of terrorist actions throughout the world, 
but, in particularly as it relates to Israel.
    Is the position that we are taking--I mean, we are so 
focused on the nuclear development. Are we losing sight of the 
fact that Iran poses other threats besides just nuclear?
    General Austin. I don't think we are, sir. I think, first 
of all, if we can--you know, we are very pragmatic about the 
P5+1 and our efforts there.
    But if we can get that done, I think it will make a 
significant difference in the region.
    Certainly, a nuclear Iran is something that no one wants to 
see.
    But above and beyond that, I agree with you that Iran 
presents a number of other threats to the region. Their ability 
to mine the straits; their ability to conduct cyber attacks; 
their ballistic missile capability; and, of course, the issue 
that you just spoke to, the activities of the Quds Force and 
their efforts to spread malign activity, not only around the 
region, but across the globe.
    And I think what the leaders in the region remain focused 
on are all those other things in addition to the nuclear 
capability.
    So, certainly the folks in the region haven't lost sight of 
that. We have not lost sight of that.
    But, again, if we can get the P5+1 negotiations to the 
right place, I think it will make a significant difference for 
all of us going forward.
    The Chairman. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman.
    I want to thank the witnesses not only for being here 
today, but, more importantly, for your long and distinguished 
service to our country and to the people in your command.
    Like many of my colleagues, I was quite disturbed and very 
concerned when the Secretary rolled out his proposed budget 
cuts last week. And I know we will be hearing more about it 
tomorrow.
    In my view, this is absolutely not the time to hollow out 
our military or to eliminate critical air and sea assets. And I 
hope we can find a way forward that does not allow that to 
happen.
    I would like to discuss a particular proposal this morning 
with you, and that is one that I think you know has generated 
considerable debate. And that is the mission of the A-10.
    I am proud to represent many people in my district who are 
associated with Davis Monthan Air Force Base, many of the 
pilots who fly the A-10. At that base, we have the 355th 
Fighter Wing, which supports and operates 82 Warthog and trains 
the next generation of A-10 pilots.
    And I think you all know that this critical platform to our 
military arsenal has been updated with new electronic packages, 
new wings, which will extend the life of the A-10 for another 
15 to 20 years. It has already been flying for 30, but it has 
got a lot more life left, given the $1.1 billion we have 
invested in upgrades.
    This fighter plays a crucial role, in my view, in 
protecting our troops on the ground, a role that just cannot be 
suitably replicated by any other aircraft in our inventory.
    In fact, Major General Bill Hix, deputy director of TRADOC 
[Training and Doctrine Command], has said the A-10's 
``complementary mix of precision, area fires, sustained 
coverage, persistence, responsiveness, and moral and physical'' 
impact on the enemy provides a capability that should not be 
overlooked.
    And, as you know, the Warthog provides dynamic close air 
support at high altitudes, where attack helicopters can't fly, 
such as the mountains of eastern Afghanistan, and it can fly 
low and slow, and in tight places, close spaces, something 
aircraft, other aircraft cannot perform with the same effect.
    General, the President's--President Obama's budget would 
divest the entire A-10 fleet to reduce costs.
    And with countless sorties flown by the A-10 in Iraq and 
Afghanistan, which have proven lethal to the enemy, in support 
of ground troops during firefights, I ask you, General, how 
would the loss of the A-10 mission affect CENTCOM's close air 
support capabilities?
    General Austin. Is that my question, sir?
    Mr. Barber. Yes, sir, General Austin.
    General Austin. All right, thank you, sir.
    Well, as you have indicated, the A-10 has provided a 
tremendous service to the forces on the ground over time. And I 
have seen it do wonderful things in both Iraq and Afghanistan.
    Having said that, you know, it is--actually the domain of 
the Air Force to really kind of figure out how to balance their 
requirements, you know, how to balance readiness and force 
modernization and end strength going forward.
    As a combatant commander, you know, what I care about is 
when I put forth a requirement to support our troops, that the 
services can provide that support--credible support and in a 
timely fashion. And if the Air Force determines that there are 
other platforms that can deliver that, I would have to defer to 
their judgment; but again, it has provided credible and 
sustained support to our troops in combat.
    Mr. Barber. Absolutely agree with you.
    When I talk to the men and women of the Army down in Fort 
Huachuca, which is also down in my district, they have told me 
over and over again that when the Warthog shows up overhead 
they are going to have a much better day. And I think we need 
to make sure it is continuing.
    I would like to pose a similar question, Admiral, to you. 
It is my understanding that PACOM's strategic approach relies 
on the A-10's assured presence to meet the demands of the 
military contingency mission. Osan Air Force base in South 
Korea, which houses the 51st Fighter Wing, employs a premier 
close air support A-10 fighter squadron, has more fire power to 
provide closer support than its counterparts and at a cheaper 
price.
    If the A-10s in this region, Admiral, are divested, what 
capability will fill the close air support gap that would 
result, and at what price?
    Admiral Locklear. Well, first let me say that I am very 
proud of the forces that--A-10 squadrons that operate in 
support of the Korean peninsula and in support of all of our 
operations in the PACOM AOR.
    I am in the same position that General Austin is in, that, 
you know, the--given where we are today with the budget, and 
given the way we're in the future, the services are having to 
make hard decisions. And this is a decision that I have to 
defer to the Air Force on if they have to come back to me and 
be able to show us what will replace this.
    There are capabilities out there. Clearly they don't 
exactly parallel what the A-10 can do. But, we will just have 
to--when this platform goes away, we will have to use what the 
services can resource and produce and we will have to readjust 
our plans to be able to minimize the amount of risk, assuming 
that we can do that.
    Mr. Barber. Thank you, Mr. Chairman.
    The Chairman. Mr. Bridenstine.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    I would like to clarify, contrary to the comments by my 
colleague, Congressman Garamendi, the President is not serious 
about increasing defense spending. What he is very serious 
about is holding proper defense spending hostage to social 
spending.
    To start, I would like to quote the Assistant Secretary for 
Defense--Secretary of Defense for Acquisition, Katrina 
McFarland. Her quote is, ``Right now, the pivot is being looked 
at again, because, candidly, it can't happen.''
    She says, ``Candidly, it can't happen.''
    Admiral Locklear, would you agree with that assessment or 
not?
    Admiral Locklear. Well, I wouldn't completely agree with 
it. I mean, I think there are shades of how you have to answer 
that question.
    First, the pivot is not just about military. We have got a 
lot of different aspects. So there are trade agreements, there 
are activities with our allies--if you come to my headquarters 
we are moving forward with the aspects of rebalancing. We are 
working hard on the alliances, on the exercises to underpin 
them. We are moving our force structure into places we need to.
    The real question is, is whether or not the force that 
Congress will eventually buy to give us, is it adequate for the 
security environment that is changing? And my AOR has changed 
significantly--in my lifetime it has changed dramatically in 
this area.
    So whether or not we can resource to meet the challenges 
and remain the preeminent guarantor of security in the Pacific 
area, I think that is the question.
    Mr. Bridenstine. Thank you, Admiral.
    General Rodriguez, in your testimony you talked about some 
of the challenges you face with assets, including ISR, Medevac, 
crisis response, and my understanding is for some of those 
funding issues that you are having, you are actually turning to 
OCO funds, Overseas Contingency Operations funds, which should 
not technically be used for this. But can you share with us 
your testimony on ISR and other asset shortages that you might 
have?
    General Rodriguez. Yes.
    As I mentioned in testimony, the ISR shortages that we 
have, you know, are less than half of our support--requests get 
supported. And on the personnel recovery and Medevac is about 
the long ranges that we are challenged with in AFRICOM that, 
you know, puts our people at risk at distances that we have 
challenges supporting.
    And, on the crisis response forces, the challenge that we 
have is really in Western Africa where we don't have access 
agreements, overflight or expeditionary infrastructure to 
support ability to move closer when the indications and 
warnings are increased or there is an increased threat level to 
those high-risk, high-threat embassies in Western Africa.
    Mr. Bridenstine. If you had your optimum order of battle, 
what kind of assets would you need and where would they be 
located?
    General Rodriguez. I would have some improved expeditionary 
infrastructure across West Africa so that we could go in and 
out of there as required based on the situation and then some 
increased ISR assets to support the entire Intelligence 
Community's ability to understand the situation as best as we 
possibly could on the ground so we couldn't get surprised.
    Mr. Bridenstine. As far as mobility assets, can you 
describe the situation there?
    General Rodriguez. The mobility assets that we are talking 
about are multiple different types of platform, mostly air 
movement as well as helicopter movement and the long-range 
capability of the V-22s; it would be a combination of all those 
things.
    Mr. Bridenstine. Thank you.
    And, General Austin, I just wanted to get your take on what 
looks more and more real would be the zero option. Obviously 
the President has had some phone calls with the President of 
Afghanistan--or Afghanistan, and those have not gone well.
    If we end up in a zero option in Afghanistan, can you 
describe to me, do you believe that would be stabilizing or 
destabilizing?
    General Austin. Well, I certainly believe it would be 
problematic for the country of Afghanistan, because I think the 
military would struggle, or the security forces would struggle 
going forward, because of the possibility of a lack of 
resources and also lack of mentorship.
    Now, to be fair, going forward, our goal is to transition 
responsibilities for the security of Afghanistan to the country 
of Afghanistan, and we have been working hard at that for 13 
years now. And so, as they stand up capability, what we want to 
do is stand down and trend towards a more normal relationship 
going forward.
    And so, you know, we are hopeful that we can do that, and I 
think if we can do that, and we are there to help mentor them a 
bit more, then I think it will be extremely beneficial.
    But again, the goal is to have the Afghans do this for 
themselves at some point going forward.
    The Chairman. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I have some specific 
questions for Admiral Locklear about the number of carriers 
that we need. But, before I get into that, just revisiting the 
budget thing a little bit. The President is very, very serious 
about increasing the defense budget.
    You know, he put together his strategy 3, 4 years ago. At 
the time there was considerable concern that that strategy 
didn't spend enough money, but it spent a heck of a lot more 
money than what we wound up spending in 3 years and what we 
project to spend going forward, as a result of the Budget 
Control Act, as a result of sequestration, as a result of a 
whole bunch of different issues.
    So make no mistake about it, the $26 billion that the 
President has asked for, he is very serious about, because that 
is, you know, what meets the strategy that they had put in 
place.
    But yes, it is fair to say that he understands that a 
country does not simply stand on how much money it spends on 
defense. He cares also about infrastructure, about 
transportation, about investments in research. And it is the 
entire discretionary budget, that defense is slightly over half 
of, that has been most devastated by the Budget Control Act and 
by sequestration. And we, on this committee, document with 
great detail the impacts that has on our defense.
    But, outside of this committee--and certainly in our 
districts--the impacts we have seen on transportation, you 
know, our infrastructure is just way behind. The impacts we 
have seen on investments in research, on education, on Head 
Start, on a whole lot of programs that are very important is 
just as real.
    The President is serious about both.
    Now, as Mr. Forbes and I had this epic battle about--you 
know, what to do about the budget, there is a clear 
disagreement about how to handle the larger budget. The 
President wants to get to that vision of the $56 billion by 
increasing taxes and making cuts to entitlements.
    You know, he put a proposal on the table a year ago for the 
Chained CPI [Consumer Price Index], you know, which was very 
controversial. He has not been at all unwilling to go after the 
entitlements. And the problem that we have collectively as a 
body, House, Senate, President is we can't get to a point where 
we get an agreement on raising taxes or cutting entitlements, 
which then forces us into a discretionary budget that is lower 
than most of us want.
    Some are very comfortable with it. You know, some, you 
know, very conservative folks want to cut everything including 
defense. I know the chairman battles that in his own caucus. 
There are some on our side who are more than comfortable 
cutting defense. But, overall, we cannot get an agreement to 
get to that larger number that the majority of us want, because 
we are unwilling to raise taxes and cut entitlements.
    Now, on the Republican side, they say we don't need to 
raise taxes, and we have had that argument, but it is not 
President is, you know, interested in cutting defense. He put 
his plan in place 3 years ago that had us spending a lot more 
money than we are currently talking about spending, but all of 
these other fights, over the overall budget, have shoved us 
down to a number that is very problematic--I will agree with 
you on that.
    It is a matter of how we get an agreement.
    Which brings us to the point that I started with, we are 
where we are. We have the top line that we have. And the worst 
thing that this committee and this Congress could do at this 
point is to fight every single cut that has been proposed to 
hit that top line, because where that leaves us, it leaves us 
with a hollow force.
    If we will not make the cuts in base infrastructure, in 
personnel costs, whether it is the--you know, the A-10 on that 
side, the 11 cruisers that we want to mothball--if we don't do 
that, what happens is readiness gets cut, because then you are 
down to the last thing and you cut down on training, you cut 
down on equipment, you cut down on maintenance.
    That is a hollow force.
    A hollow force is not about the size of the force. It is 
about whether or not the force you have is trained and equipped 
to do the missions that you are asking them to do. And if we 
don't make some of these other cuts, that is where we are 
likely to be.
    Now, I am wide open to ideas, all right. If someone says, 
``Hey, can't cut the A-10,'' okay. Show me the $3.5 billion. 
All right. Can't do the personnel cuts? Show the $700 million. 
Show me the $5 billion for the cruisers. But if we simply say 
no, no, no, no, no, at the end, we wind up with readiness in a 
very bad place.
    On the carrier issue, you know, I have heard everywhere, I 
think I heard Mr. Forbes say at a forum we were at last week 
that we are in a 15-carrier world, that ideally, to meet our 
requirements, we would hit 15 carriers. But I also happen to 
know that a lot of folks very high up in the Navy think that we 
could survive quite easily with 10, 9, or even 8 carriers. That 
the 11 carriers are primarily about presence more than they are 
about warfighting capability, and there are a lot cheaper ways 
to establish presence.
    Now, before my friends down in Norfolk freak out, I 
understand the industrial base argument. Okay. If you shrink 
down to 10 or 9 or 8, do you lose the ability to build any in 
the future? And that is something we certainly will need to 
talk about. But Admiral Locklear, from a strategy standpoint, 
you know, could we not have a very effective national security 
strategy with fewer than 11 aircraft carriers?
    Admiral Locklear. In my view, you could not.
    Mr. Smith. Are there folks high up in the Navy who disagree 
with that view, without naming names?
    Admiral Locklear. I don't know who they are, if they do. If 
they do, they haven't been out and about very much or 
understand the utility of aircraft carriers as it relates to 
global security environment rather than just fighting wars.
    Mr. Smith. Just listening to internal dynamics, and I don't 
know if you are a part, but when we were talking, when folks 
were meeting to talk about how to hit this cap that we are all 
frustrated about for different reasons, were there not some in 
the Navy and some in the Pentagon who said that one of the ways 
to do that, they would support, would be reducing from 11 
aircraft carriers?
    Admiral Locklear. If they did, I don't know who they are. I 
mean, I am sure you could find someone, but I am not--wasn't 
privy to that argument, and I--to be honest with you, I can't 
see a--I mean, unless the world changes and the role of 
aircraft carriers can be subsumed by something else, which they 
can't, at least in the Navy and the military bill today----
    Mr. Smith. So spin that out for me a little. What is it, 
that if we had 10 instead of 11, that we couldn't do that would 
place us at risk?
    Admiral Locklear. If you look at your defenses only in the 
context of can you fight a war----
    Mr. Smith. No, I am not.
    Admiral Locklear [continuing]. Then the numbers of carriers 
that you--first of all, you have to get them there quickly. I 
mean, war is going to start more quickly than it did in the 
last century, so you have to be generally present with some 
things to be relevant in the early stages of any conflict. So, 
we made that investment in nuclear aircraft carriers for a lot 
of reasons, because they can just stay forward, as you know, 
they have significant strike capability, they also have a huge 
deterrent value, otherwise other countries, you know, like 
China, wouldn't be building them.
    And they have the ability to be there in what we would call 
phase zero in day-to-day operations----
    Mr. Smith. Let me pause you on just one piece there.
    At the moment, China has built one, and that they got from 
Russia, and it is not exactly incredibly capable, so China has 
been at this for quite a while, and they haven't built any, so 
I am not sure that is a good argument.
    On the other side of it, I mean, I am not--I accept some of 
your broader arguments, but I am not sure that is an effective 
one.
    Admiral Locklear. Well, they have announced they are going 
to pursue a fleet of four just in this past year.
    But we don't build carriers because of Chinese carriers.
    Mr. Smith. Right.
    Admiral Locklear. So, if you think globally today, you 
effectively have a 10-carrier force with 11 that is coming. The 
demand signal day to day from Syria, to Iran, to Korea, to the 
South China Sea that demand this asset be there because of the 
sovereignty issues, you don't have to have somebody's 
permission, because of the strike capability, because of the 
command and control capability they bring----
    Mr. Smith. And as security, any other ship that we could 
send out there?
    Admiral Locklear. Yes. Absolutely.
    Mr. Smith. Yes, I take your point in that. We have other 
ships. We have cruisers, we have destroyers, we have 
submarines, we have other things we could send in for that same 
reason. What, and again, this is more of a thought experiment, 
because I think these are the type of thought experiments we 
are going to need to have in order to get to a budget that 
makes sense, what is it about an aircraft carrier that these 
other ships don't bring to forward presence in deterrence?
    Admiral Locklear. Well, they bring about 40 strike aircraft 
that are going to have, from Super Hornets into the next 
generation of F-35, stealth capability. They are going to have 
MV-22 capability. So there is this, I mean, to try to put that 
on another platform, you would end up having basically----
    Mr. Smith. Well, no, you wouldn't put it on another 
platform. The other platforms, what they bring, is they bring 
standoff weapon strike capability. They bring cruise missiles 
and a variety of other things; not implying that you have to 
fly in and shoot. So that is the tradeoff there.
    Admiral Locklear. That is true, but I would say that a lot 
of what you do with aircraft carriers is you use them before 
you actually start shooting. And so the ability to maintain air 
and space and maritime dominance if you--if you are only going 
to rely on missiles that you fire and it is when the shooting 
starts, then you limit, you know, you start to limit the space 
for decisions to be made.
    Mr. Smith. Understood. Let me drill down a little bit on 
that.
    So, aircraft carriers give us dominance that has nothing to 
do with what they could shoot. What is that, exactly? What do 
aircraft--what do aircraft carriers do that give us that sort 
of dominance outside of actually having to shoot?
    Admiral Locklear. Well, first of all, they take with them--
you know, generally go in an aircraft carrier strike group, 
which has other maritime assets with it, including cruisers and 
destroyers, that capability to interact with submarines, U.S. 
submarines that go with them.
    Mr. Smith. Understood, but the aircraft carrier is not 
necessarily required for that. That is part of that strike 
group, but the strike group is, I mean, that is just the way 
that we have assembled it, so----
    Admiral Locklear. The aircraft carrier is not required? I 
don't----
    Mr. Smith. No, I am asking, to some degree. You know, if 
you have a strike group, why does an aircraft carrier have to 
be part of that?
    Admiral Locklear. Well, we have deployed strike groups in 
the past. Then, we had battleships that were the centerpiece of 
a strike group. And we didn't like the options that those 
assets that became very expensive and kind of arcane provided 
for us. But we haven't seen that same change in the value of 
having U.S. sovereign aircraft carriers that can produce 
credible strike capability forward in places where we want to 
manage the crisis in our favor, and if crisis occurs, be able 
to respond quickly. And that is the value of having a carrier 
forward in my AOR.
    Mr. Smith. Okay. And you feel strongly that 11 is the 
number that we need at this point.
    Admiral Locklear. Well, you have about 10 now. We can't 
support the global demand. And so, I don't know how you get to 
a better equation. We have tried--the Navy has tried very hard 
to kind of get into a resourcing rate that ables up the 
presence capability. But, one thing for sure, in my experience 
is that part of the U.S. global leadership is maritime 
dominance, where we choose to have it. And at the front of that 
maritime dominance, which starts to become very important, 
particularly in the world we are in today, are the capability 
that aircraft carriers bring.
    Mr. Smith. Okay. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Cook.
    Mr. Cook. Thank you, Mr. Chairman. I have got a number of 
questions, and I will try and be quick. But, Admiral, I know it 
has been a long day with everything, but I just want to 
resurrect this question about the U-2s.
    And, I will stay away from the A-10s and full disclosure, I 
am a Marine officer asking an admiral with two Army officers an 
Air Force question, but my concern is about Korea and the U-2s 
and the situation there. The U-2 has had more than nine lives, 
you know, ever since 1960, going forward. And I always thought 
it was based on a cost-benefit analysis that what you got for 
that high-altitude platform in bad weather and everything else, 
it has been around, and I noticed that it is out of the budget. 
I am going to stay away from the A-10s and all the other stuff.
    But in your opinion, right now, doing that, because of 
Korea, do you weigh in on that at all? Would you prefer to 
still see if it has got a lot of miles? I was one of the ones 
in 1968 to want to get rid of the M-16, and it is still around, 
so sometimes improvements can be made, and if you could just 
quickly comment on that.
    Admiral Locklear. Well, I think when General Scaparrotti 
comes to see you, he will be able to give you a detail of how 
he figures the U-2 into his plans, but in general, the U-2 
today is central to the ISR plan for the Korea peninsula. It 
has capabilities that you just well articulated. I don't, you 
know, need to go through those again. But, I think in the 
dialogue that the Air Force has had that said, ``We just can't 
afford everything.'' So, we want to go, and we have to go in 
the direction of these unmanneds. They have other, broader 
capabilities, and we have to merge the capabilities that the U-
2 bring and put it on these unmanned platforms, which, the 
unmanned piece is not a bad direction for the future. I mean, 
that is a good direction for us.
    So, to the degree that this decision motivates the ISR 
capabilities to be migrated onto those unmanned platforms in a 
way that services the warfighter demand, that is, I think, that 
is an opportunity, but it has to be realized.
    Mr. Cook. General Austin, real quick, we have had different 
briefs about the equipment coming out of Afghanistan. And one 
time I heard there was $21 billion to $22 billion worth of 
equipment, and the Marine Corps, last brief, said they had a 
lot of their equipment that came through Pakistan. Do you have 
any estimate on how much gear we still have left right now that 
is--we have got to get back and the clock is ticking. Could you 
address that, briefly?
    General Austin. Yes sir. In terms of vehicles, there are 
probably about 17,000-plus vehicles in-country and there are 
about 3,000 or so, well, there are a number of containers there 
that we will have to redeploy as well.
    Mr. Cook. Coming through Pakistan, primarily, or is that 
the port of choice, or the country----
    General Austin. We use number of routes, sir.
    Mr. Cook. Depending upon how we--okay.
    General Austin. Southern ground LOC [line of communication] 
in Pakistan, predominantly, is about 44 percent of our 
inventory goes down that route. We use multimodal, you know, 
flat out transfer at some point, and put it on a ship. Other 
means.
    Mr. Cook. Yes sir. The MRAPS [Mine-Resistant Ambush 
Protected vehicles]. You know, we had a brief, a couple months 
ago, about, and I don't know, I think the thing has changed, 
the number was that they were going to chop up, or the old ones 
or what have you. And then I look at the situation in Iraq, 
unfortunately, Fallujah, where the Iraqis can't--they have 
tried to come back and seize that. They ran into a number of 
IEDs [improvised explosive devices], and based upon that--the 
situation which really hasn't changed in a couple of decades, 
almost, are we looking at the number of MRAPs that maybe we 
want to put in part of the pre-position forces or expand that? 
Has that been revisited at all because of----
    General Austin. The services have done extensive work, sir, 
to determine what their needs going forward are, both in pre-
position stocks, in both to support their training efforts back 
at home and their rapid deployment efforts as well.
    Mr. Cook. Okay. The last question I have is about Egypt, 
and of course the situation with the buying Russian equipment 
and the helicopters in the Sinai. How do you feel about the 
Egyptians obviously want more helicopters to combat that 
terrorist threat in the Sinai. Do you have any comments on 
that?
    General Austin. Well, certainly, I think that they have 
been clear about their need for more Apaches from us to, excuse 
me, to support their efforts. I think that certainly, you know, 
we should support them when we can support them, and again, 
once you know, if our leadership decides that that is the right 
thing to do, but clearly they have a need. They are in a fight 
in the Sinai. They are great partners from a military 
perspective, and I think we want to maintain that partnership.
    Mr. Cook. Thank you very much, I yield back.
    The Chairman. Yield back.
    [Laughter.]
    I enjoyed the discussion between the admiral and Mr. Smith 
about aircraft carriers. I would like to make a couple of 
comments about it, and I would like to ask some questions of 
the admiral about that, too. You know, I think one of the main 
things that we benefit from with our strong military is--goes 
back to the comments of General Eisenhower, President 
Eisenhower. We hear a lot about beware of the military 
industrial complex. But he also said, be so strong that nobody 
dares attack us for fear of annihilation. And I think, because 
we have had a strong military, continue to have a very strong 
military, it keeps us out of war. And that is--should be, 
hopefully, the ultimate goal. I know that is what you work on 
every day, to keep our young men and women out of harm's way, 
and that is something that I think that the aircraft carrier 
goes a long way, as a deterrent, if we never had to use them.
    The fact that we have them keeps us out of probably many 
conflicts. By having 10, and this is what I would like to ask 
you, Admiral Locklear, we have 11. One of them needs to be 
refueled. So, that cuts us down to 10, and I know in the budget 
they are saying they want to hold off on refueling that one, so 
basically, we are going to just take it out of the service and 
then decide later, I guess, what, that is the plan with that, 
and with the 13 cruisers. But, if we have 11, or 10, what is 
their position? I mean, 10 aren't all forward at all times, 
right? How do you position those?
    Admiral Locklear. Well, with the exception of the George 
Washington, which is forward-deployed in Japan in support of 
the alliance and in response to the Korean peninsula, the 
remaining 10 of them are distributed on the east and west coast 
of the United States. So, the cost-benefit of having a nuclear 
carrier that can stay deployed for a long time with the 
capabilities that it has is that it is also, the cost is that 
it is a nuclear carrier, and it requires care and feeding to be 
able to operate these things for 50 years, and with an 
industrial base that is generally pretty small to be able to 
support it.
    So, there is a requirement by the Navy to be able to get 
these things through their required maintenance to be able to 
send them back out. So, there is a turnaround ratio. Now, in 
the case of the kind of day-to-day world we are in, with the 
number of carriers today, the Navy struggles to meet the 
carrier demand signal from basically CENTCOM and PACOM. In 
fact, they can't do it. I mean there is--they can't meet it, 
and they will tell you that.
    In the case of--and so that is in your kind of normal, day-
to-day managing of a very complex security environment and the 
role that those carriers plays in it. So, we have two or three 
to four carriers out at any one time, that is a lot in kind of 
steady state. Now, in the case of a larger conflict, where you 
had to go to a contingency, you may require three, four, five, 
six aircraft carriers, and then those would have to be surged; 
but in my case, it takes a while for things to get out and to 
get surged, and you may not have--the ``flash-to-bang'' in 
Korea is about a day, and you are going to have potential for a 
million people dead in a day. And so, thinking that we are 
going to surge a large capacity for the United States to get on 
top of that particular problem will just put us--creates issues 
for us.
    So, I guess that was a long answer to your question. That 
the entire force has to be looked at as an enterprise that 
pushes out the carriers in peacetime on the ability to be able 
to manage, provide that forward presence that is critical, I 
think, to our security.
    The Chairman. Thank you all for your service. Thank you for 
being here today. Appreciate your patience, your indulgence, 
and thank you to the men and women that serve with you. Would 
you please convey that back to them, of how much we appreciate 
them and their families and the sacrifices that they make on a 
daily basis for us. Thank you very much, the committee stands 
adjourned.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]


      =======================================================================




                            A P P E N D I X

                             March 5, 2014

=======================================================================

      


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 5, 2014

=======================================================================

  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
      
    

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 5, 2014

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MRS. DAVIS

    Admiral Locklear. The FY15 budget request includes more than $775M 
of military construction (MILCON) supporting USPACOM and Service 
requirements in the Pacific theater. This budget request meets the 
USPACOM posture requirements.
    The $128M for military infrastructure referenced in your question 
refers to the Presidential Budget Request MILCON program specifically 
for Guam. Table 1 below provides a breakdown of those requirements.

                       Table 1: FY15 President's Budget submission for Guam MILCON program
----------------------------------------------------------------------------------------------------------------
                           PACOM                                                              Lead    MILCON ROM
    GDP Initiative      Initiative               Project              Country    Location     Agent      ($M)
----------------------------------------------------------------------------------------------------------------
DPRI                   Basing and    Ground Support Element Shops    Guam       Andersen    USN        $21.88
                        Resiliency    at North Ramp (USMC)                       AFB
----------------------------------------------------------------------------------------------------------------
DPRI                   Basing and    Marine Wing Support Squadron    Guam       Andersen    USN        $28.77
                        Resiliency    Facilities at North Ramp                   AFB
                                      (USMC)
----------------------------------------------------------------------------------------------------------------
Access in South and    Basing and    Guam Strike Fuel Systems Maint  Guam       Andersen    USAF       $64.00
 Southeast Asia         Resiliency    Hanger Inc. 2                              AFB
----------------------------------------------------------------------------------------------------------------
Access in South and    Basing and    PRTC RED HORSE Logistics        Guam       Andersen    USAF        $3.15
 Southeast Asia         Resiliency    Facility                                   AFB
----------------------------------------------------------------------------------------------------------------
Access in South and    Basing and    PRTC Combat Communications      Guam       Andersen    USAF        $3.75
 Southeast Asia         Resiliency    Infrastructure Facility                    AFB
----------------------------------------------------------------------------------------------------------------
Access in South and    Basing and    PRTC Satellite Fire Station     Guam       Andersen    USAF        $6.50
 Southeast Asia         Resiliency                                               AFB
----------------------------------------------------------------------------------------------------------------
                                                                                    Total             $128.05
----------------------------------------------------------------------------------------------------------------
[See page 17.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TURNER
    General Austin. We continue to focus on recruiting more women into 
the force. And to train those women to assume greater roles of 
responsibility. Right now I think the ratio is about one percent of the 
total force is female. But having said that, I think we're working a 
number of lines of effort simultaneously. It's refreshing to see that 
we have our first fixed wing pilot that's recently been trained and so 
there are more to follow in the pipeline. This is, as you know, not an 
easy task. But I think where we are now, based upon where we started, 
we're a long way away from a start point. And we'll continue to 
emphasize and work with the Afghans to continue to emphasize this going 
forward.
    Ensuring these women get assigned where they are needed is a 
challenge. And, you know, it's something that we're going to have to 
continue to work with the Afghan leadership on in moving forward. 
Again, I think there's a police chief that's going to take a position 
in Herat, which is out in the west as you know, in the near future. 
That's encouraging. But we're going to have to continue to emphasize to 
the Afghan leadership that, in order to get the women out to where they 
need to be and provide the right protections for them, there are things 
that they're going to need to continue to focus on. And we're just not 
there yet.   [See page 18.]
?
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 5, 2014

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. Are you adequately resourced to plan, execute, and 
oversee the contract support you would need in the event of a major 
contingency in your area of responsibility?
    Admiral Locklear. Although United States Pacific Command (USPACOM) 
has made great progress towards integrating contract planning, USPACOM 
currently has a shortfall of Operational Contract Support (OCS) 
integraton throughout the Theater. The establishments of Joint 
Contingency Acquisition Support Office (JCASO) planners at USPACOM, 
United States Forces Korea (USFK) and United States Forces Japan (USFJ) 
have increased OCS integration and readiness by adding planning 
capabilities. USPACOM has issued an updated OCS Instruction to 
components and Sub-Unified Commands, describing the OCS environment 
within the USPACOM AOR and providing planning and execution guidance 
for OCS. Current planning efforts include OCS direction and guidance as 
part of base plans and annexes. USPACOM is the first Combatant Command 
(CCMD) to implement an OCS Mission Integrator (OMI) cell through an 
Office of the Secretary of Defense (OSD) and Joint Staff (JS) 
initiative demonstrating the capability. This OMI Cell will provide the 
operational capacity to integrate OCS across the broader staff, and 
provide increased capability to support planning for contract support 
across all joint capability areas.
    The OMI concept will be implemented through this demonstration, 
developing and executing the first overseas Joint OCS Exercise next 
year to provide training throughout USPACOM and our Service Components 
while exercising command and control for contract planning and 
execution supporting a major operation. The OMI team will enable 
planning, integration and contract execution capability throughout the 
Theater, from the CCMD to Service Components; from contracting offices 
to requiring activities, while providing command and control to link 
contracting support to operations. OMI will demonstrate operational 
contract support effectiveness through participation in the existing 
USPACOM operationalized command and control construct, ensuring OCS is 
integrated throughout our plans at both the CCMD and Service Component 
level.
    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. Are you adequately resourced to plan, execute, and 
oversee the contract support you would need in the event of a major 
contingency in your area of responsibility?
    General Austin. We recognize the importance of Operational Contract 
Support (OCS) as a critical enabler for a broad range of potential 
contingencies and have incorporated OCS into each of our major 
contingency plans. The development of requirements and the execution 
and oversight of contracting actions are primarily Service issues but 
we, in conjunction with the Joint Staff, are attempting to mitigate 
resourcing deficiencies by coordinating training geared specifically 
for OCS planning and activities. We continue to advocate for each 
Service component to have trained OCS planners and to have those 
planners integrated into the Service component plans. Additionally, we 
are working closely with the Joint Staff to refine and integrate OCS 
doctrine into our planning efforts. Implementation of OCS processes and 
procedures by the Services is improving our ability to define contract 
support requirements, award contracts that efficiently fulfill the 
requirement and ensure proper contract oversight in theater. We utilize 
resources provided by outside organizations to support OCS efforts, but 
they are not sufficient. Neither the Combatant Commands nor the Service 
components are staffed with OCS planners which are required to ensure 
OCS is integrated in all planning efforts.
    Mr. McKeon. We've had many lessons learned from contracting actions 
during contingency operations and there is no doubt we will rely on 
contract support in future contingencies, be it humanitarian relief or 
full-spectrum combat operations. What are you doing to not only plan 
for contract support during a contingency, but to educate and train 
your personnel so they are prepared to develop requirements, and 
execute and oversee contracting actions in order to properly respond in 
a contingency. Are you adequately resourced to plan, execute, and 
oversee the contract support you would need in the event of a major 
contingency in your area of responsibility?
    General Rodriguez. USAFRICOM is prepared to plan, execute, and 
oversee operational contract support (OCS) in a contingency 
environment, but there are aspects of OCS in USAFRICOM that we can 
improve. Below are some of the actions and initiatives that we've taken 
to not only plan for contract support during a contingency, but also to 
educate and train our personnel to develop requirements and execute and 
oversee contracting actions during a contingency.
     1.  We are doubling the size of our four-person OCS branch in 
order to centralize acquisition/contracting expertise to oversee, 
assist, and provide quality control for all USAFRICOM Directorate 
Operational and non-operational contracting activities--from 
requirements generation through contract execution, oversight/
administration.
     2.  In partnership with the Defense Logistics Agency, we have two 
embedded Joint Contingency Acquisition Support Office (JCASO) planners 
working closely with our staff to ensure we incorporate OCS 
considerations in operations planning.
     3.  We are developing our OCS Common Operational Picture (COP) and 
leveraging the capabilities resident in the new Global Combat Support 
System-Joint (GCSS-J) to synchronize and optimize OCS efforts at 
various levels of organizational structure in our AOR. This effort 
represents an on-going initiative to establish a centralized repository 
of relevant OCS information available to key stakeholders.
     4.  In order to improve OCS in our component commands, we conduct 
Staff Assistance Visits (SAV) to ensure current OCS processes, 
policies, tools, and procedures enhance mission execution. The end 
state of the scheduled SAVs is to gain better understanding of 
component OCS procedures, gaps, and issues, and streamlined OCS 
processes and standardized procedures.
     5.  We have developed an OCS planning template as a guide that 
enables our subordinate commands to plan OCS with respect to 
operations, security cooperation activities, and exercises.
     6.  We have taken advantage of available OCS training offered by 
Joint Staff/J4 and Army Logistics University. In Nov 13, USAFRICOM 
hosted the first 2-week JOPEC course taught by Joint Staff/J4 in 
Stuttgart, Germany, for operational and logistics planners and other 
DOD entities with OCS equity. The course focuses on planning for 
contract support integration, contracting support, and contractor 
management. We have requested two JOPEC sessions for the next fiscal 
year.
     7.  We have established validation boards for operational 
requirements and are currently in the process of streamlining our 
validation procedures to better consolidate contracting actions, reduce 
cost, and eliminate duplication of efforts. Additionally, in order to 
synchronize and optimize OCS and other logistics-related efforts in the 
AOR, we conduct monthly OCS Working Group and quarterly Combatant 
Commander Logistics Procurement Support Board meetings.
     8.  We are in the process of gathering observations for submission 
into the Department of Defense's Joint Lessons Learned Information 
Management System (JLLIS) related to Operational Contract Support. 
Lessons learned will be incorporated into training events and 
activities as we have done in the past.
     9.  DLA JCASO has developed an OCS Readiness Scorecard management 
tool which provides an assessment of performance measures on 28 OCS-
related assigned and implied tasks in policy, campaign plans, 
operations orders, and directives. We review this scorecard at OCS 
forums such as our quarterly CLPSB and our monthly OCS Working Groups 
to understand if required tasks are being executed and if not, why not, 
and what corrective actions can be taken.
    10.  We continuously coordinate with the Office of the Secretary of 
Defense/Office of the Deputy Chief Management Officer (DCMO) to mature 
our Contract/Spend Performance Assessment capability. We are committed 
to improving end-to-end visibility over HQ AFRICOM requirements and 
contracts and to strengthening the positive control we have over 
externally sourced support. With OSD/DCMO's support and assistance, we 
analyzed AFRICOM's data for all FY13 HQ requirements, financials, and 
contracts to measure ability to match Requirements to Commitments and 
Obligations to Contracts in systems of record.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. LOBIONDO
    Mr. LoBiondo. When the U-2 goes out of service will we still be 
able to fulfill all of the high-altitude intelligence collection 
requirements we have in the Pacific? Will we be able to continue 
monitoring activities in North Korea without regard to weather 
conditions as we can now with the U-2? Will other assets provide the 
same sort of flexibility to react in a crisis and the same capabilities 
as the U-2? In a scenario where our space assets may be degraded will 
other platforms be able to provide the same critical intelligence 
support we now get from the U-2? Did you and the other combatant 
commanders have any input into the decision to retire the U-2s? If so, 
what was your recommendation?
    Admiral Locklear. [The information referred to is classified and is 
retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS
    Ms. Tsongas. The Oversight and Investigations Subcommittee has 
conducted a series of hearings involving the Department of Defense's 
response to the terrorist attack on the U.S. Embassy in Benghazi on 
September 11, 2012. As a result of these hearings, the majority 
published a report of major findings last month.
    One of the report's major findings was that the ``U.S. military's 
response to the Benghazi attack was severely degraded because of the 
location and readiness of U.S. forces.'' However, another one of the 
report's major findings was that ``the Department of Defense is working 
to correct many weaknesses revealed by the Benghazi attack.''
    Can you please explain to the committee what changes the Department 
of Defense has made to correct the issues that the Benghazi attack 
revealed? Please specifically address changes to the posture of armed 
aircraft, ISR platforms, and quick-response ground forces.
    Additionally, can you please describe how these changes to DOD 
posture in your AOR helped during the situations in Somalia and South 
Sudan.
    General Rodriguez. [The information referred to is classified and 
is retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. SHUSTER
    Mr. Shuster. On the subject of effectors, the Congress has 
supported acceleration of the deployment of the PAC-3 missile to 
combatant commands but production and resources limit replacing the 
current missile inventory one-for-one with PAC-3s. This concerns 
several members of the House since, in multiple scenarios, U.S. forces 
would deplete the current inventory of PAC-3s before some hypothetical 
opposing forces deplete their inventories of threats. PAC-2/GEM-T is an 
upgrade to PAC-2 that, when combined with the PAC-3 inventory, can 
counter short and long-range threats and address evasive 
characteristics of enemy missiles. Do you currently believe you have 
the necessary inventory mix of PAC-2/GEM-Ts and PAC-3s to sufficiently 
address the full range of threat scenarios?
    General Austin. [The information referred to is classified and is 
retained in the committee files.]
    Mr. Shuster. In his confirmation discussions, Secretary Hagel 
confirmed that CENTCOM has an outstanding requirement for persistent 
elevated surveillance and fire control. In a July 22, 2013, op-ed in 
``The Hill,'' Commander Kirk S. Lippold (USN Ret.), former commander of 
the USS Cole, suggested that capability to address that requirement in 
the form of the Joint Land Attack Cruise Missile Defense Elevated 
Netted Sensor System (JLENS) could have supported the type of force 
protection mission needed to defend against the attack on the Cole. Are 
you aware that a JLENS orbit stands in strategic reserve in New Mexico 
today? Would deployment of that asset to the Persian Gulf help CENTCOM 
provide the surveillance and fire control required to provide missile 
defense and force protection to forward deployed troops?
    General Austin. I am aware of the JLENS system orbiting in 
strategic reserve at the White Sands Missile Range in New Mexico; 
however, as I understand it, the Army was directed not to plan for 
procurement, but to employ one Engineering, Manufacturing and 
Development (EMD) orbit to support a 3-year exercise at Aberdeen 
Proving Ground, Maryland. The decision to terminate planned procurement 
of JLENS was based on affordability and other competing priorities. My 
team has assessed that JLENS could be used to effectively counter 
swarming boats, UAVs, and cruise missiles. However, considering JLENS' 
fielding requirements, which include host nation approval, airspace 
restrictions, site preparation requirements, and the need for trained 
soldiers, it is debatable whether or not the cost/benefit ration merits 
efforts to deploy the system.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. LAMBORN
    Mr. Lamborn. 1. What is the annualized cost of O&M for each of the 
following platforms: EMARSS, Project Liberty (MC-12) and Sable Spear? 
2. What are the associated procurement costs (total annualized for each 
program) for each of the following platforms: EMARSS, Project Liberty 
(MC-12) and Sable Spear? 3. What is the capability and endurance 
comparison between the following platforms: EMARSS, Project Liberty 
(MC-12) and Sable Spear? 4. If OCO O&M for ISR was not funded, what 
capabilities would be lost? Would it have an effect on footprint size, 
or number, for the remaining ISR assets--assuming USAFRICOM were to 
maintain the same level of capability? 5. What geographic footprint is 
required for each of the following platforms: EMARSS, Project Liberty 
(MC-12) and Sable Spear?
    Note: Sable Spear is a project name known by AFRICOM and SOCOM
    General Rodriguez. [The information referred to is classified and 
is retained in the committee files.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. SPEIER
    Ms. Speier. Throughout the wars in Iraq and Afghanistan we've been 
heavily reliant upon private security contractors. A few years ago the 
Afghans said that our aid programs and convoys couldn't rely on 
contractors anymore and instead had to use the Afghan Public Protection 
Force (APPF). SIGAR and others pointed out that relying on APPF 
significantly increased security risks for our service men and women 
and aid workers there. The government of Afghanistan recently disbanded 
the APPF. General Austin, what does this mean for security in 
Afghanistan? Are we going to go back to using private security 
contractors instead, and how are you mitigating security concerns?
    General Austin. The President of Afghanistan directed that the 
responsibility for the security mission of the APPF be transferred to 
the Ministry of the Interior. The exact date of implementation and the 
transition plan are still undefined at this point. We continue to 
monitor the situation; so far there have been no lapses in the security 
services provided by the APPF. We are also working with the Ministry of 
the Interior to help develop their implementation plan. We do not 
expect to revert back to using private security contractors.
    Ms. Speier. Last year I sent a letter to Secretary Hagel after 
SIGAR found that burn pits were being used at Forward Operating Base 
Salerno, in violation of DOD guidelines and CENTCOM regulations, and we 
had wasted $5.4 million on incinerators to protect our service men and 
women's health that were never used. I was told that there weren't any 
other bases that had received waivers to use burn pits, but in December 
SIGAR issued a report about the same thing--$5.4 million wasted on 
inoperable incinerators, and continued use of open air burn pits in 
violation of DOD policy. General Austin, are there any other bases in 
Afghanistan that are operating open air burn pits, in violation of 
policy, and have been issued a waiver?
    General Austin. There is currently one burn pit operating at 
Forward Operating Base Sabit Qadam, where the base exceeds the 
population of 100 U.S. personnel. This burn pit is operating with a 
USCENTCOM approved waiver. The base was scheduled for closure, but 
USFOR-A requested a 90-day waiver extension to support operational 
requirements. There is no other viable alternative means for waste 
disposal under the current operational conditions and in anticipation 
of base closure.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. This is a follow-up on Representative Duckworth's 
question on the role of the Guard and Reserve within CENTCOM--she was 
looking for more specific details.
    What percentage of missions within the CENTCOM AOR are completed by 
the Guard and Reserve ground element and what is the nature of those 
operations? Please describe whether those are combat operations or 
support operations. Additionally, how many flight hours were flown by 
Guard and Reserve pilots and again, what were the nature of those 
operations: support, combat, humanitarian etc.? In which countries are 
they operating and can you please detail the percentage of readiness 
levels compared to their Active Duty counterparts?
    General Austin. Guard and Reserve forces constitute approximately 
15% of the total force operating in the USCENTCOM AOR. The average 
Guard and Reserve manning in support of Operation ENDURING FREEDOM in 
Fiscal Year 2013 was 13,587 personnel. The total flight hours in Fiscal 
Year 2013 executed by Guard and Reserve pilots exceeded 125,000 flight 
hours and included mobility, air-refueling, combat (fighter, bomber, 
helicopter, and SOF), ISR and Search and Rescue mission sets. When 
Guard and Reserve forces deploy to the theater they are at 100% 
readiness, they are completely integrated with the active force. 
Questions regarding the exact breakdown of ground and air missions, 
along with specific details, would be best answered by the Services.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. Are you concerned about our long-term ability to 
project airpower in your area of responsibility, particularly given (1) 
the decreased carrier presence in the Arabian Gulf and (2) the fact 
that our bases in Al Udeid and Al Dhafra are supported by OCO funds?
    General Austin. The combination of carrier presence and enduring 
bases at Al Udeid, Qatar and Al Dhafra, United Arab Emirates provides 
us with flexibility and a sustainable capability for projecting 
airpower in the Arabian Gulf. This critical capability has enabled us 
to manage current conflicts and prevent other situations and 
confrontations from escalating into conflicts. While we are facing 
significant budgetary constraints, we must remain present and engaged 
in the Central Region going forward, in order to reassure our allies 
and convey strength to our potential adversaries. This will require 
base lined funding, once OCO funds are no longer available.
    Mrs. Walorski. Given the short-term growth of the Iranian economy, 
do you think the current relaxed sanctions on Iran are sufficient to 
incentivize a comprehensive nuclear agreement?
    General Austin. Thus far, the relaxed sanctions appear to be 
prompting Iranian compliance and willingness to negotiate a final 
comprehensive nuclear agreement. Ultimately, Iran seeks permanent 
sanctions relief, while securing terms regarding its nuclear program 
that are favorable to the regime.
    Iran recently complained it has not been able to access any of the 
foreign reserves released so far under the terms of the Joint Plan of 
Action (JPOA) interim agreement. As a result, Tehran is beginning to 
highlight P5+1 ``noncompliance'' with the agreement while touting its 
own continued compliance. Additionally, it is already courting 
international investment and building economic relationships beyond the 
JPOA framework, which potentially violate standing sanctions.


                                     [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
